<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2010

                              ----------                              


                         THURSDAY, MAY 7, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:08 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Leahy, Lautenberg, Pryor, 
Shelby, and Alexander.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. ERIC H. HOLDER, JR., ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning. The Subcommittee on 
Commerce, Justice, Science of the Senate Appropriations 
Committee will come to order.
    The subcommittee this morning wants to give a very warm and 
cordial welcome to our Attorney General, Eric Holder. This is 
his first appearance before the Senate Appropriations 
Committee, and we welcome him. We want to hear the President's 
priorities, his agenda for essentially rebuilding and 
recapitalizing the Department of Justice.
    The American people rely on the Department of Justice, and 
we are passionate about restoring it to what its original 
mission is. We know that you bring a great deal of experience 
as a career prosecutor, as a judge, and as someone who has been 
dedicated to protecting the American people from all kinds of 
crime.
    As the Chair of the Commerce, Justice, Science 
Subcommittee, I want to look to you to be able to carry out the 
mandate. First of all, restoring the honor and integrity of the 
Justice Department. There are so many people who work at the 
Justice Department every day. Not only our gifted and talented 
legal teams, but all those who support them and then those who 
work in the field of Federal law enforcement, as well as those 
who administer those grant programs designed to deal with 
prevention and intervention.
    They need to know that the Department of Justice is free 
from politics and ideology. And whether it has been what has 
happened at the U.S. Attorneys Office, whether it has been the 
politics involved in giving out the juvenile justice grants, 
and, of course, the issues related to torture, we are going to 
hear from you how you want to restore that trust. And then what 
are the resources you need to be able to begin enforcing those 
laws that need to be enforced, as well as those that might have 
been overlooked as we fought other wars, particularly in the 
area of civil rights?
    We are also concerned that in addition to fighting the 
global war against terrorism, we need to continue to protect 
our neighborhoods. We will be reviewing the budget for cops on 
the beat; the Byrne grants to make sure that they have 
resources that they need to fight local crime, and also, again, 
those very important grant programs that make such a difference 
in the lives of people in the local police departments. As you 
know, people interact with Justice at many different levels.
    There are also new threats, particularly in the area of 
mortgage fraud, predatory lending, identity theft, cyber 
crime--all kinds of new, emerging things that were not pressing 
when you worked in Government more than a decade ago. The 
Internet seemed nothing more than an expensive toy for a few, 
and now it is an essential tool for law enforcement. But we now 
find the criminals are as good at using the Net as we are, and 
we don't want them to escape the net of justice.
    There is also the issue of terrorism. During the last 
decade, with America under attack and our desire to protect the 
homeland, our law enforcement agencies have had to assume a new 
role, particularly the FBI. We will want to hear about that. 
And we will also want to hear about the President's plan for 
the closing of Guantanamo Bay.
    I support the President's agenda for closing Guantanamo 
Bay, and at the same time, as a United States Senator, I want 
to make sure that we protect our neighborhoods and communities 
as we look at what is the honorable and right way to deal with 
the prisoners that are there.
    We need to enforce the law. We need to respect 
international law. But we have to make sure that streets and 
neighborhoods are not going to be the repository of Guantanamo 
prisoners. So we are going to be asking questions about the 
President's policies.
    We would like to hear from you today, as you present your 
budget. We know that the President has given us kind of the top 
line on the appropriations. We don't have the kinds of details 
we normally would have for this hearing, but we are pleased at 
the direction that he is going in.
    We are also particularly pleased that he understands the 
role of our Federal law enforcement, not only our FBI, but also 
the Marshals Service, DEA, and ATF. We note the President has 
increased funding in those--the Marshals Service by an increase 
of $198 million, DEA by close to $100 million, et cetera.
    For the cops on the beat, which goes to neighborhood 
initiatives, we know that the President has increased this by 
$300 million. But we are deeply troubled that the Office of 
Justice Programs has been reduced by $594 million just at the 
time when local communities are facing great stress, 
particularly those marvelous prevention programs. So we will go 
into this in more detail.
    But I will save more focused comments for my questions. I 
would like to turn now to Senator Shelby for any comments that 
he might have.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman.
    Attorney General Holder, welcome to the committee, and 
thank you for joining us to discuss the Department of Justice 
and its 2010 budget request.
    First, I want to recognize and extend my appreciation and 
support to the men and women of the Department of Justice who 
protect the country from crime and terrorism. We owe them all a 
debt of gratitude.
    The fiscal year 2010 budget request for the Department of 
Justice is $24 billion. This is a $950 million, or 4 percent 
increase over the 2009 request.
    In keeping pace with the last administration, the 
Department continues to be, some people think, satisfied 
playing second fiddle to the Department of Homeland Security--I 
hope that is not true--whether it is drugs, gun tracing, 
explosive, jurisdiction, or the border war. During the last 
administration, the Department of Homeland Security's request 
grew 7 to 10 percent each year, while the Justice Department 
request decreased or remained flat until this year.
    While the overall numbers for the Department appear to have 
improved, there is a disturbing theme throughout the request 
that advocates hugs for criminals, some people think, instead 
of catching and punishing them. I am specifically, Mr. Attorney 
General, referring to the Second Chance Act.
    The DOJ 2010 budget press release sent out by your office 
highlights the Second Chance Act. Now that is not a bad thing, 
but there is no mention of Adam Walsh funding, for example. The 
welfare of terrorists, pedophiles, and career criminals is 
prioritized, some people believe, at the expense of child 
safety, crime victims, and law enforcement. I hope this is not 
the case.
    Once again, this administration, like the previous one, has 
requested such an inadequate level of funding for the Adam 
Walsh enforcement that it essentially ensures the act's 
failure, which is disturbing. In a perfect world flush with 
resources, I would be supportive of funding the Second Chance 
Act, period. But the very idea of taking money from victims and 
law enforcement officers to educate and comfort terrorists, 
pedophiles, and career criminals I think is an abomination.
    Let me say this again. The Department of Justice is 
requesting funds to educate and to mentor terrorists, 
pedophiles, and career criminals while requesting no funds for 
tracking the kinds of people that abducted and sexually 
assaulted Adam Walsh, Elizabeth Smart, Drew Sjodin, Polly 
Klaas, and Jessica Lunsford and others like them.
    How can we look into the eyes of the parents of these 
children and tell them the Department of Justice and the 
administration are prioritizing criminals while being 
overfunding of the Adam Walsh Act?
    Mr. Attorney General, the administration recently announced 
its intention to close the military detention facility at 
Guantanamo Bay, where 241 detainees are still being held. This 
will be a difficult and expensive undertaking for the 
Department.
    The Los Angeles Times recently reported that the 
administration plans to possibly release the detainees into the 
United States. The Director of National Intelligence, Dennis 
Blair, went so far as to suggest that the administration is 
even considering providing these terrorists with taxpayer-
funded subsidies to establish and supplement their new life in 
America. Gosh, I hope they don't come to my community.
    I look forward to hearing whether this administration 
really intends to release these terrorist-trained detainees 
into our communities and give them public assistance and under 
what circumstances.
    Last, Mr. Attorney General, I would like an explanation of 
the cost and burdens the department will have to undertake to 
begin the closure process. We want to work with you to ensure 
that the personnel under your direction involved in this 
process have the resources necessary to complete their mission 
safely.
    And I do thank you again for appearing before the 
committee.
    Senator Mikulski. Mr. Attorney General

                    STATEMENT OF ERIC H. HOLDER, JR.

    Attorney General Holder. Good morning, Chairwoman Mikulski, 
Ranking Member Shelby, Senator Alexander. It is good to see 
you.
    And I guess happy birthday, Senator Shelby. I understand 
you had a birthday yesterday?
    Senator Shelby. Thank you. I did, and I hope I have many 
more. Thank you.
    Attorney General Holder. I am sure you will.
    Senator Mikulski. I didn't know that. You really are a good 
detective.
    Attorney General Holder. The FBI works for me. Due to the 
Presidential transition, the fiscal year 2010 budget request is 
being released in two parts. In February, the administration 
announced the top-line request for each agency, including the 
Department of Justice. Today, the President will transmit the 
fiscal year 2010 budget, which includes $26.7 billion for the 
Department of Justice.
    I appreciate the opportunity to appear before you today to 
highlight certain aspects of the budget and further discuss key 
priorities for the Department of Justice.
    The President promised that from the day that he took 
office; America will have a Justice Department that is truly 
dedicated to exactly that: justice. As I mentioned, the fiscal 
year 2010 budget that will be transmitted today supports this 
vital task by investing a total of $26.7 billion in our 
critical law enforcement mission, including protecting America 
from terrorism, fighting financial and mortgage fraud, getting 
more cops on the beat, reinvigorating civil rights enforcement, 
and providing essential resources for our prisons.
    As I testified during my confirmation hearing earlier this 
year, I will also pursue a very specific set of priorities. 
First, I will work to strengthen the activities of the Federal 
Government to protect the American people from terrorism. I 
will use every available tactic to defeat our adversaries, and 
I will do so within the letter and the spirit of our 
Constitution.
    Adherence to the rule of law strengthens security by 
depriving terrorist organizations of their prime recruiting 
tools. America must be a beacon to the world. We will lead by 
strength. We will lead by wisdom, and we will lead by example.
    Second, I will ensure that law enforcement decisions and 
personnel actions in the Justice Department are untainted by 
partisanship.
    Third, I will revive the traditional missions of the 
Department. Without ever relaxing our guard against the fight 
against global terrorism, the Department must also embrace its 
historic mission in fighting crime, protecting civil rights, 
protecting the environment, and ensuring fairness in the 
marketplace.

                   PRESIDENT OBAMA'S EXECUTIVE ORDERS

    The Department's work does not end with those priorities. 
On January 22, President Obama issued three Executive orders 
and a Presidential memorandum that gave significant 
responsibility to the Department. These orders require 
immediate interagency action regarding Guantanamo Bay 
detainees, specifically to: review the appropriate disposition 
of individuals who are currently detained there; to develop 
policies for handling individuals captured or apprehended in 
connection with armed conflicts and terrorist activities; and 
evaluate current interrogation practices and make 
recommendations as is necessary.
    Now while implementing these orders, the Department will 
take necessary precautions to ensure decisions regarding 
Guantanamo Bay detainees account for safety concerns for all 
Americans. Executing these orders will have a significant 
workload and cost impact on the Department, and this budget 
reflects that need.
    Last month, I, along with other U.S. Government officials, 
attended the Mexico-United States arms trafficking conference 
in Mexico. This was my first foreign trip as Attorney General. 
My attendance at this conference reflects my commitment to 
continuing the fight against the drug cartels. The United 
States shares the responsibility to find solutions to this 
problem, and we will join our Mexican counterparts in every 
step of the fight.
    Now, $26.7 billion is a significant amount of money that 
comes with a commensurate amount of responsibility. We will use 
these funds wisely and with transparency. Our internal efforts, 
which range from implementing the Department's new Unified 
Financial Management System to establishing internal controls 
to ensure that proper expenditure of Recovery Act funds, will 
demonstrate our commitment to accountability at the highest 
level.

                           PREPARED STATEMENT

    Chairwoman Mikulski, Senator Shelby, and members of the 
subcommittee, I want to thank you for this opportunity to 
discuss the Department's priorities and for your support of our 
programs. I appreciate your recognition of the Department's 
mission and the important work that we do.
    I look forward to working in partnership with this 
subcommittee and with Congress as a whole. I will be pleased to 
answer any questions that you might have.
    [The statement follows:]

               Prepared Statement of Eric H. Holder, Jr.

    Good morning Chairwoman Mikulski, Ranking Member Shelby, and 
Members of the Subcommittee. Thank you for the opportunity to appear 
before you today to highlight areas of the President's fiscal year 2010 
Budget for the U.S. Department of Justice and further discuss key 
priorities for the Department. I would also like to thank you for your 
support of the American Recovery and Reinvestment Act and the fiscal 
year 2009 Omnibus Appropriations Act. I look forward to your continued 
support and appreciate your recognition of the Department's mission and 
the important work that we do.
    The Department is responsible for defending the interests of the 
United States according to the law; ensuring public safety against 
threats both foreign and domestic; seeking just punishment for 
individuals who break the law; assisting our State and local partners; 
and ensuring fair and impartial administration of justice for all 
Americans. The Department's ability to meet its mission is dependent on 
funding that supports our operations and allows us to enhance our 
efforts in identified areas of need.
    Today the President released the fiscal year 2010 Budget which 
includes $26.7 billion for the Department of Justice. This is a 3.8 
percent increase over the fiscal year 2009 appropriation. The 
Department's budget includes enhanced funding for: strengthening 
national security and intelligence programs; combating financial fraud; 
hiring additional police officers; enforcing civil rights; securing our 
Nation's borders; and expanding Federal detention and incarceration 
programs. More specifically, the President's fiscal year 2010 Budget 
request:
  --Counters the Threat of Terrorism and Strengthens National 
        Security.--The request provides $7.9 billion for the Federal 
        Bureau of Investigation (FBI), including $480 million in 
        enhancements and $101 million for continued support of overseas 
        contingency operations and $88 million for the National 
        Security Division (NSD), to address the President's highest 
        priority: protecting the American people from terrorist acts. 
        Funding supports the detection and disruption of terrorists, 
        counterintelligence, cyber security, and other threats against 
        our National Security.
  --Provides Funding to Begin to put 50,000 More Cops on the Street.--
        The request expands the COPS Hiring Grants, and includes 
        funding to begin hiring 50,000 additional police officers. 
        Supporting the hiring of police officers nationwide will help 
        States and communities prevent the growth of crime during the 
        economic downturn.
  --Combats Financial Fraud.--The request includes resources for 
        additional FBI agents to investigate mortgage fraud and white 
        collar crime and for additional Federal prosecutors, civil 
        litigators and bankruptcy attorneys to protect investors, the 
        market, the Federal Government's investment of resources in the 
        financial crisis, and the American public.
  --Reinvigorates Federal Civil Rights Enforcement.--The request 
        provides a total of $145 million for the Civil Rights Division 
        to strengthen civil rights enforcement against racial, ethnic, 
        sexual preference, religious, gender, and other forms of 
        discrimination.
  --Strengthens Immigration Enforcement and Border Security.--The 
        request supports resources for a comprehensive approach to 
        enforcement along our borders that combines law enforcement and 
        prosecutorial efforts to investigate, arrest, detain, and 
        prosecute illegal immigrants and other criminals. This 
        initiative also enhances the Department's ability to track 
        fugitives from justice, combat gunrunners and shut down illegal 
        drug traffickers.
  --Supports Federal Detention and Incarceration Programs.--The request 
        provides $6.1 billion for the Bureau of Prisons and $1.4 
        billion for the Office of the Detention Trustee to ensure that 
        sentenced criminals and detainees are housed in facilities that 
        are safe, humane, cost-efficient, and appropriately secure.
  --Expands Prisoner Reentry Programs.--The request includes $114 
        million for prisoner reentry programs, including an additional 
        $75 million for the Office of Justice Programs to expand grant 
        programs authorized by the Second Chance Act that provide 
        counseling, job training, drug treatment, and other 
        transitional assistance to former prisoners.
    As I testified during my confirmation hearing earlier this year, I 
will pursue a very specific set of goals:
    First, I will work to strengthen the activities of the Federal 
Government that protect the American people from terrorism. I will use 
every available tactic to defeat our adversaries, and I will do so 
within the letter and spirit of the Constitution. Adherence to the rule 
of law strengthens security by depriving terrorist organizations of 
their prime recruiting tools. America must be a beacon to the world. We 
will lead by strength, we will lead by wisdom, and we will lead by 
example.
    Second, I will work to restore the credibility of a Department 
badly shaken by allegations of improper political interference. Law 
enforcement decisions and personnel actions must be untainted by 
partisanship. Under my stewardship, the Department of Justice will 
serve justice, not the fleeting interests of any political party.
    Third, I will reinvigorate the traditional missions of the 
Department. Without ever relaxing our guard in the fight against global 
terrorism, the Department must also embrace its historic role in 
fighting crime, protecting civil rights, preserving the environment, 
and ensuring fairness in the market place.
    In addressing these priorities over the next several years, I look 
to the continued support of this subcommittee and Congress, as a whole, 
to ensure a systematic approach is implemented to target each one of 
the priorities outlined.

        NATIONAL SECURITY: COUNTER-TERRORISM EFFORTS SINCE 9/11

    Since the attacks of September 11, 2001, the highest priority of 
the Department has been to protect America against acts of terrorism. 
Despite repeated and sustained efforts by terrorists, there has not 
been another attack on American soil. The Department has improved 
significantly its ability to identify, penetrate, and dismantle 
terrorist plots as a result of a series of structural reforms, the 
development of new intelligence and law enforcement tools, and a new 
mindset that values information sharing, communication and prevention. 
Working with its Federal, State, and local partners, as well as 
international counterparts, the Department has tirelessly worked to 
safeguard America.
    The FBI has transformed its operations to better detect and 
dismantle terrorist enterprises--part of the FBI's larger emphasis on 
threat-driven intelligence. As part of this strategic shift, the FBI 
has overhauled its counterterrorism operations, expanded intelligence 
capabilities, modernized business practices and technology, and 
improved coordination with its partners.
    All of the Department's law enforcement components, especially 
those involved in national security efforts need reliable wireless 
communication capabilities. The ability of law enforcement to 
adequately communicate is vital in emergency situations and for day-to-
day operations. Inadequate radio systems put our agents' lives, as well 
as those of the public, at risk. On average, the current Department 
radio systems are between 15 and 20 years old. The Integrated Wireless 
Network (IWN) Program is an interagency effort to provide secure, 
interoperable wireless communications that support the missions of the 
Federal agencies involved in this initiative. IWN will provide a range 
of secure and reliable wireless communications services, including 
voice, data and multimedia, to support Federal law enforcement, 
homeland security, and first responder operations. IWN will implement 
solutions to provide Federal agency interoperability with appropriate 
links to State, local and tribal public safety and homeland security 
entities. IWN will be deployed incrementally across the country by 
2014.

                       SOUTHWEST BORDER VIOLENCE

    Several weeks ago, this subcommittee held hearings with Special 
Agents in Charge of the Drug Enforcement Administration (DEA) and the 
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF); and then 
with Acting DEA Administrator Michele Leonhart. These hearings provided 
you critical information on the Department's efforts to address this 
issue. I will not attempt to summarize what took place during the 
previous hearings regarding this matter, but I will highlight some of 
the work the Department has engaged in recently to address southwest 
border violence.
    Illegal immigration and border security continue to be paramount 
concerns for the United States and the Department. The Southwest Border 
in particular is a vulnerable area for illegal immigration, drug 
trafficking, and the smuggling of illegal firearms. Implementing a 
comprehensive strategy involves collaboration and coordination at 
various levels of the government. Late last month, the Department 
announced increased efforts to be used in the fight against Mexican 
Drug Cartels. The Department, along with the Department of Homeland 
Security (DHS) and the Department of State, will invest $700 million 
this year to enhance Mexican law enforcement and judicial capacity and 
work closely to coordinate efforts against the cartels through the 
Merida Initiative. The Department's coordination will include the FBI, 
DEA, ATF, U.S. Marshals Service (USMS) and the Criminal Division, who 
will work to investigate and prosecute cartel members for their illegal 
activities in the United States and with law enforcement colleagues to 
disrupt the illegal flow of weapons and bulk cash to Mexico.
    The Mexican Cartel Strategy will allow the Department to commit 100 
ATF personnel to the Southwest Border to supplement our ongoing Project 
Gunrunner, DEA will add 16 new positions on the border, as well as 
newly reconstituted Mobile Enforcement Teams, and the FBI is creating a 
new intelligence group that will focus on kidnapping and extortion. DHS 
is making similar commitments regarding southwest border resources. In 
addition, I have met with Secretary Napolitano to discuss increased 
coordination on various matters between the Department of Justice and 
DHS.
    The Mexican Cartel Strategy is being led by Deputy Attorney General 
David Ogden. This strategy uses Federal prosecutor-led task forces that 
bring together Federal, State and local law enforcement agencies to 
identify, disrupt and dismantle the Mexican drug cartels through 
investigation, prosecution, and extradition of their key leaders and 
facilitators, and seizure and forfeiture of their assets. The 
Department is increasing its focus on investigations and prosecutions 
of the southbound smuggling of guns and cash that fuel the violence and 
corruption and attacking the cartels in Mexico itself, in partnership 
with the Mexican Attorney General's Office and the Secretariat of 
Public Security.
    Earlier this month I, along with other U.S. government officials, 
attended the Mexico/United States Arms Trafficking Conference in 
Cuernavaca, Mexico. This was my first foreign trip as Attorney General. 
My attendance at this conference reflects my commitment to continuing 
this fight against the drug cartels. The United States shares the 
responsibility to find solutions to this problem and we will join our 
Mexican counterparts in every step of this fight.

   IMPLEMENTING THE PRESIDENT'S EXECUTIVE ORDERS TO CLOSE GUANTANAMO

    On January 22, President Obama issued three Executive Orders and a 
Presidential Memorandum that gave significant responsibility to the 
Department. These Orders, which are clearly important Presidential 
initiatives, require immediate interagency action to:
  --review and effect the appropriate disposition of individuals 
        currently detained by the Department of Defense at the 
        Guantanamo Bay Naval Base;
  --develop policies for the detention, trial transfer, release, or 
        other disposition of individuals captured or apprehended in 
        connection with armed conflicts and counterterrorism 
        operations;
  --study and evaluate current interrogation practices and techniques 
        and, if warranted, recommend additional or different guidance;
  --and review the detention of Ali Saleh Kahlah al-Marri.
    The Department has begun implementing these Orders and the 
Memorandum. I have appointed an Executive Director to lead the Task 
Force on Review of Guantanamo Bay Detainees. I have also named two 
officials to lead the Task Force Reviews on Interrogation and Detention 
Policy.
    The Guantanamo Detainee Review Task Force is responsible for 
assembling and examining relevant information and making 
recommendations regarding the proper disposition of each individual 
currently detained at Guantanamo Bay. The Task Force will consider 
whether it is possible to transfer or release detained individuals 
consistent with the national security and foreign policy interests of 
the United States; evaluate whether the government should seek to 
prosecute detained individuals for crimes they may have committed; and, 
if none of those options are possible, the Task Force will recommend 
other lawful means for disposition of the detained individuals.
    The Special Task Force on Interrogation and Transfer Policies is 
charged with conducting a review to determine whether the Army Field 
Manual interrogation guidelines, when employed by departments or 
agencies outside the military, provide an appropriate means of 
acquiring the intelligence to protect the Nation, and whether different 
or additional interrogation guidance is necessary. This task force is 
also responsible for examining the transfer of individuals to other 
nations to ensure that such practices comply with all domestic and 
international legal obligations and are sufficient to ensure that such 
individuals do not face torture or inhumane treatment.
    The Special Task Force on Detention Policy is charged with 
conducting a review of the lawful options available to the Federal 
Government for the apprehension, detention, trial, transfer, release or 
other disposition of individuals captured or apprehended in connection 
with armed conflicts and counterterrorism operations.
    The Presidential Orders and the Memorandum require me to coordinate 
or co-chair each of these interagency activities. These task forces 
also involve other Departments and agencies, including the Secretaries 
of Defense, State, Homeland Security, the Director of National 
Intelligence, the Director of the Central Intelligence Agency, the 
Chairman of the Joint Chiefs of Staff and other officials.
    While implementing these Orders the Department will take necessary 
precautions to ensure decisions regarding Guantanamo detainees account 
for safety concerns of all Americans. Executing these orders will have 
a significant workload and cost impact on the Department and this 
budget reflects that need.

  FEDERAL AND STATE PARTNERSHIPS TARGETING FORECLOSURE SCAMS AND LOAN 
                           MODIFICATION FRAUD

    As many Americans face the adverse affects of a devastating economy 
and an unstable housing market, the administration announced a new 
coordinated effort across Federal and State government and the private 
sector to target mortgage loan modification fraud and foreclosure 
rescue scams. These fraudulent activities threaten to hurt American 
homeowners and prevent them from getting the help they need during 
these challenging times. The new effort aligns responses from Federal 
law enforcement agencies, State investigators and prosecutors, civil 
enforcement authorities, and the private sector to protect homeowners 
seeking assistance under the administration's Making Home Affordable 
Program from criminals looking to perpetrate predatory schemes.
    The Department, in partnership with the U.S. Department of 
Treasury, the Department of Housing and Urban Development (HUD), the 
Federal Trade Commission (FTC) and the Attorney General of Illinois, 
will coordinate information and resources across agencies to maximize 
targeting and efficiency in fraud investigations, alert financial 
institutions to emerging schemes and step up enforcement actions. As 
part of this multi-agency effort, the Department has outlined ways to 
crack down on mortgage fraud schemes. The FBI is investigating more 
than 2,100 mortgage fraud cases. This number is up almost 400 percent 
from 5 years ago. The Bureau has more than doubled the number of agents 
investigating mortgage scams, created a National Mortgage Fraud Team at 
Headquarters, and is working hand-in-hand with other partnering 
agencies.
    In addition to focusing on fraudulent scams, I am committed to 
ensuring that homeowners who may be having difficulty making their 
mortgage payments do not experience discrimination and can benefit in 
equal measure from legitimate loan modification programs and other 
Federal programs to provide mortgage assistance and stabilize home 
prices. Lending discrimination prevents those who are discriminated 
against from enjoying the benefits of access to credit, including 
reasonable mortgage payments, so they can stay in their homes and 
provide much needed stability for their neighborhoods.
    Discrimination in lending on the basis of race, national origin, or 
other prohibited factors is destructive, morally repugnant, and against 
the law. We will use the full range of our enforcement authority to 
investigate and prosecute this type of unacceptable lending 
discrimination.

                  UNIFIED FINANCIAL MANAGEMENT SYSTEM

    Lastly, the Department continues to address ways to improve work 
efficiency and productivity. One important and complex effort in the 
Department's management arena is the implementation of the Unified 
Financial Management System (UFMS). Once fully implemented, UFMS will 
result in more accurate, timely and useful financial information that 
can better support management decisions and actions. UFMS will also 
enhance the Department's accountability, accuracy, and transparency as 
it relates to financial performance, internal controls, and standard 
business practices. Significant achievements and progress have been 
made on UFMS, and details of our future plans are provided in our 
Congressional request.
    UFMS is a critical element in the long-term health of the 
Department's financial operations and we look forward to working with 
the subcommittee as we move forward with UFMS implementation.

                               CONCLUSION

    Chairwoman Mikulski, Senator Shelby, and Members of the 
Subcommittee, I want to thank you for this opportunity to discuss my 
priorities for the Department.
    Today I have highlighted critical areas that require attention and 
resources so that the Department can fulfill its mission to enforce the 
Nation's laws and help protect national security. I hope you will 
support me in these worthy investments. As always, we are aware that 
there are tough decisions and challenges ahead and I look forward to 
working with you as we move forward.
    Once again, thank you for inviting me here today. I am pleased to 
answer any questions you might have.

    Senator Mikulski. Well, first, Mr. Attorney General, we 
want to salute you on these priorities and believe that in your 
official statement, too, where you say you want to counter the 
threat of terrorism and strengthen national security; make sure 
we are providing cops on the beat, 50,000 of them; strengthen 
the Southwest border initiatives, both dealing with the Mexican 
cartels as well as others; and combating financial fraud--we 
believe these are very important priorities.
    Let me get, though, right to what is a headline topic, 
which is the Guantanamo Bay closing. We on the committee 
attended this time last week a hearing on the supplemental, and 
we heard the outstanding testimony of Secretaries Gates and 
Clinton, where we listened to the Departments of Defense and 
State. But a significant part of what needs to happen will be 
at Justice. So we are going to ask a little bit about the 
supplemental as well as this, what is in the fiscal year 2010 
budget request.
    As we understand for Guantanamo, the Justice Department is 
asking for $30 million to begin the closing of Guantanamo Bay 
and then has a placeholder for fiscal 2010 for additional funds 
related to the closing of Guantanamo Bay. Could you tell me--I 
mean, you have got $30 million here, and what it says is you 
have got three task forces. That just strikes the committee as 
an awful lot of money to pay for bureaucracy, three task 
forces.
    We do not minimize the role of these task forces, which are 
detention review, interrogation policy, et cetera. But what 
would this $30 million do, and is this laying the groundwork 
for the dumping of terrorists into State and Federal prisons?

                        REVIEW OF DETAINEE CASES

    Attorney General Holder. Well, Madam Chairwoman, these are, 
as you indicated, not ordinary task forces. We were asked to 
set them up with short deadlines. There are, obviously, as you 
indicated, extraordinary consequences to the work that these 
task forces will do for our country and for the world, for that 
matter.
    We had to take extraordinary measures to stand up these 
full-fledged classified task forces to put in place these 
classified legal review structures utilizing dozens of 
attorneys and subject matter experts from around the country. 
Now, to be more specific, we stood up a temporary classified 
organization at the top secret SCI level.
    There are tens of thousands of pages of classified 
documents that have to be reviewed, thousands more that have to 
be translated. There are now over 80 attorneys, including 
several dozen who are detailed to Washington from our field 
offices, who are involved in this effort. We have paralegals 
with classified clearances that are needed and are involved in 
the effort.
    We have travel and lodging for those staff that is included 
in this money. And we are also having to backfill the positions 
in the field so that our traditional law enforcement work 
doesn't suffer as a result of the work the task forces have to 
do.
    Now all of this work has to be done in a secure, classified 
environment, using secure networks and classified capable 
computers, scanning devices, phones, and copiers. And as you 
know from your Intelligence Committee work, this is material 
and equipment that is very expensive. We also have secure 
electronic document handling capabilities that we need. We have 
to outfit these task forces with, in essence, the secure 
equipment that is required for the work that they are doing.
    We have also entered into an automated litigation support 
arrangement to support the massive document review effort that 
the task forces will have to do.
    Senator Mikulski. Mr. Attorney General, what you are saying 
is that though it sounds like 241 prisoners, which is not a 
large number--I mean, in Maryland I have got 600 prisoners 
awaiting Federal trial. But the highly sensitive nature of who 
these prisoners are requires that everything occur in highly 
classified situations because of the nature of the information 
involved. Is that correct?
    Attorney General Holder. Yes. That is correct.
    Senator Mikulski. So it is just not an inventory about a 
person and what did he do and how bad he is and what we should 
do. So the cost and expense, particularly with them being off 
the coast of Cuba and our coast, require a great deal of 
expenditure just to maintain the security and the 
classification of this and that we do it in an appropriate way. 
Is that correct?
    Attorney General Holder. That is correct.
    Senator Mikulski. Now when will these task forces be done?
    Attorney General Holder. The task force that is making the 
individualized determinations on the detainees is supposed to 
be done by January of next year. The other two task forces are 
supposed to be finished by July of this year.
    Senator Mikulski. When would you anticipate that this be 
done and that prisoners would begin to leave Guantanamo to 
places yet to be determined?
    Attorney General Holder. I am not sure. We are still in the 
process of making those individualized determinations, and we 
haven't come to a conclusion yet as to when we will be in a 
position to actually ask specific countries if they would take 
specific detainees. We are doing this on a rolling basis, and 
we have not gotten to that point yet.
    I would expect in the next few months, though, that we 
would probably start that process.
    Senator Mikulski. But Mr. Attorney General, are you saying 
that there is no immediate or imminent release of prisoners who 
would be placed on the shores of the United States of America?
    Attorney General Holder. No. As I said, we are still in the 
process of making individualized determinations as to where 
these people should go. And paramount in our concern is the 
safety of the American people. We are not going to put at risk 
the safety of the people of this country in any determination 
we make with regard to the disposition of any of these 
individuals.
    Senator Mikulski. Well, I am glad to hear that safety of 
our people is the number one concern. Could you tell us what 
would be the general policy and consultation that you would 
have? Because I think the fear that many have, whether they are 
Governors or those of us who are elected national officials, is 
that we don't wake up one day and we hear that there are 100 
people coming, and they are just going to be--I don't mean 
dropped off. We would be very concerned about not proper 
consultation. Do you anticipate them going to Federal 
facilities? What is your process?
    We understand that the President and you can't go to 
another country and say, ``Please, take some of these 
prisoners,'' unless we, ourselves, also evaluate our 
responsibility. But what would be your timetable? What is your 
role and the President's in consultation so that we are aware 
of this? These are not just any old prisoners.

                        DISPOSITION OF DETAINEES

    Attorney General Holder. Yes. With regard to the 
disposition of all of these detainees, we will be consulting. 
And that is, in fact, what I was in Europe doing last week, 
talking to our allies about the possibility of making transfers 
to some of those countries. We are talking to our allies in the 
Middle East as well for the disposition of possible transfer.
    Senator Mikulski. But who are you going to talk to in the 
United States?
    Attorney General Holder. Well, if the decision is made to 
have people come to the United States. And I say ``if.'' That 
determination has not been made yet. We would obviously be 
consulting with State and local officials, and Federal 
officials to do that in the way that we would want and make 
sure, as you say, that surprises did not occur.
    But I really want to emphasize that determinations have not 
been made yet with regard to any individuals about where any 
specific people are going.
    Senator Mikulski. Well, let me tell you what I worry about. 
First of all, of course, the safety of our communities. One of 
the things that happened to me during the Bush administration 
was when I woke up to a headline coming from the Department of 
Justice and the Bureau of Prisons that they were going to put a 
prison, a 1,700-person detention facility, in Maryland. And 
they chose two African-American communities as their site, and 
nobody had talked to me. No one had talked to Governor Ehrlich, 
a Republican Governor.
    And all of a sudden, we were facing this, and it was going 
to hold everything from Federal prisoners awaiting trial to 
potentially holding terrorists. I launched like Sally Ride 
going into orbit about this, as did also Governor Ehrlich.
    It is not that we don't understand Federal responsibility, 
but wow. And also, it was going to be a privately operated 
prison by a Mississippi company. So we can't have that.
    Can I have your assurances that nothing would be done in 
States and local communities without consultation with us and 
also consultation with Governors?
    Attorney General Holder. Well, Madam Chairwoman, I give you 
that promise with regard to all that the Justice Department and 
all of the components that we have will do. We want to have a 
good relationship with this committee, and with other Members 
of Congress. We want to work in partnership, and I truly mean 
that--in partnership--so that we establish priorities to carry 
out the work that we think is important, but also what Members 
of Congress, and this committee think is important. We are 
looking to work together to solve the common problems that we 
all face.
    Senator Mikulski. Well, thank you.
    I know we are going to have a lot to talk about, but I 
thank you for your candor. What you are saying is that right 
now you are doing an inventory of who is there at Guantanomo 
Bay and what is the right way to dispose of them, as well as 
also doing a real evaluation about what are the best 
interrogation policies that get the best information under the 
rule of law. Is that correct?
    Attorney General Holder. That is correct.
    Senator Mikulski. Senator Shelby.
    Senator Shelby. Thank you, Madam Chairman.
    Attorney General Holder, about more than a month ago, my 
colleague from Alabama, Senator Sessions, who is now the 
ranking or top Republican on the Judiciary Committee that you 
will deal with a lot, he wrote you a letter dated April 2 
regarding, among other things, the legal authority of the 
United States of America through the Justice Department, asking 
whether the Federal Government has the current legal authority 
to admit any prisoner held at the military detention facility 
in Guantanamo Bay who participated in terrorist-related 
activities into the United States. He sent a follow-up letter 
on May 4 to you.
    My question to you, in view of the statutes, as you are 
very familiar with, and the Court of Appeals for the District 
of Columbia decision, does the U.S. Government have the 
authority to admit these terrorists into the United States if 
you move them from Guantanamo Bay into some of our communities? 
And if you think they do, could you provide for the committee a 
written response as to the authority of that?
    First, do you think you have the authority to do that?
    Attorney General Holder. Well, I think----
    Senator Shelby. To bring terrorists into the communities?

                  DETERMINATIONS TO TRANSFER DETAINEES

    Attorney General Holder. Well, as I indicated in my opening 
statement, the purpose of this review is to make individualized 
determinations as to what should happen to the detainees, and 
the paramount consideration that we will have is the safety of 
the American people. Transfer or release of these detainees 
will only happen in those instances where we are convinced that 
that can be done in a way that the communities that receive 
them--overseas, with our allies--will not have any impact on 
the safety of the place that is receiving them.
    Senator Shelby. Excuse me a minute. Excuse me.
    Are you saying that, one, you believe you have the legal 
authority to bring terrorists into this country and disperse 
them around the country in the communities? Do you believe you 
have that?
    Attorney General Holder. The underlying premise I don't 
agree with. We don't have any plans to release terrorists.
    Senator Shelby. No, I asked if you have the authority 
first. Do you have the authority under the law to do this? To 
bring terrorists into this country and bring them into the 
community?
    Attorney General Holder. And what I am saying is that with 
regard to those who you would describe as terrorists, we would 
not bring them into this country and release them. Anybody who 
we consider to be a terrorist, as I think you are using the 
word.
    Senator Shelby. A terrorist or a former terrorist or 
whatever, or terrorist trained, all of that.
    Attorney General Holder. And again, as I said, with regard 
to the release decisions that we will make, we will look at 
these cases on an individualized basis and make determinations 
as to where they can appropriately be placed.
    Senator Shelby. Isn't that a dicey thing to do? Do you know 
of any community in the United States of America that would 
welcome terrorists, former terrorists, would-be terrorists, 
people trained as terrorists that have been incarcerated at 
Guantanamo Bay?
    Attorney General Holder. Well, again, it will not be the 
intention of this task force review, the intention of this 
administration or this Attorney General to place anybody in any 
part of this world who is a risk to the community, to the 
country that is receiving these individuals.
    You have to understand that we are going to be making 
decisions with regard to these people. Some are going to be 
released. Some are going to be tried. Some will be detained on 
a fairly extended basis. And so, those who will be released are 
those who we think can be released and be released on a safe 
basis.
    Senator Shelby. Of course, as the Attorney General, you are 
familiar with a number of terrorists that have been released to 
their various countries and have wound up as leaders in 
terrorist activities, killing our soldiers, our allies, and 
everything else. You are aware of what the track record is 
there, where people have been released, and most of them have 
come back as some of the top terrorists of the world?
    Attorney General Holder. I am not sure if I would say 
``most.'' I know that with regard to the Saudi program, for 
instance, that re-education program that they have used, about 
10 percent of those apparently have returned to the 
battlefield, a not insignificant number. But we will do all 
that we can in those release determinations that we make to 
ensure that those people who we think will pose a danger if 
released, in fact, do not get released.
    Senator Shelby. Could you say here today that the top 
priority of your office as the Attorney General of the United 
States would be to protect the American people from terrorist 
activity at any cost?
    Attorney General Holder. I spend every waking moment of my 
life now thinking about how I can ensure the safety of the 
American people. The responsibilities of this job are enormous, 
and they have become more enormous since September 11.
    In talking to my predecessors, Attorneys General Ashcroft, 
Gonzalez, and Mukasey, I understand in a way that I did not 
before I had this job the heavy responsibility that being 
Attorney General now is.
    Senator Shelby. If I could shift a little bit to the 
explosives trafficking in Mexico that you alluded to earlier? 
In April, the Associated Press reported that Mexico has seized 
more than 2,702 grenades since the start of the new president's 
term in December 2006. There has been a lot of focusing from 
your office, too, on the trafficking of firearms to Mexico and 
tracing the origins of firearms recovered at crime scenes.
    But we have heard little in regard to the serious threat 
from explosives trafficking. Does the Department of Justice 
have adequate resources in Mexico in identifying these 
recovered explosives, one? Does the Department of Justice have 
adequate resources at the U.S. Bomb Data Center to trace the 
enormous increase in grenades recovered in Mexico and analyze 
the data from these traces?
    And what efforts, Mr. Attorney General, has the Department 
of Justice taken to provide explosive training to Mexican 
military and law enforcement authorities? And I guess, last, 
how can we help you in this regard in the funding of these 
activities that I think are very important?

              ARMS TRAFFICKING ACROSS THE SOUTHWEST BORDER

    Attorney General Holder. We think we have been helpful to 
our Mexican counterparts by moving resources to the Southwest 
border--ATF agents, DEA agents, FBI agents--as well as 
increasing our presence within Mexico to deal with the arms 
trafficking that is going on there and also with the issue that 
you raised regarding explosive devices that are found there.
    We have in our budget additional resource requests in that 
regard. I think the facility that is located in Alabama can be 
a critical part in helping our Mexican counterparts in focusing 
there. More generally, the facility will be critical in the 
work that the Justice Department should have the responsibility 
for dealing with explosives and the crime that can be committed 
using explosive devices.
    Senator Shelby. I agree.
    Attorney General Holder. That is a very, very important----
    Senator Shelby. I am glad to hear that because there is a 
tug-of-war for appropriations going on up here, wittingly or 
unwittingly, between the Department of Homeland Security and 
the Justice Department. But I believe that a lot of this 
responsibility lies with the Justice Department.
    Thank you, Madam Chair.
    Senator Mikulski. Thank you.
    Senator Lautenberg, ordinarily we would be alternating 
party. But I am taking people in their order of arrival. I am 
going to turn to Senator Alexander now.
    Senator Alexander? And then we will come right over to you, 
Senator Lautenberg.
    Senator Alexander. Thank you, Madam Chairman.
    Thank you, Senator Lautenberg. I appreciate that.
    Mr. Attorney General, welcome. Thank you for being here.
    Attorney General Holder. Good morning.
    Senator Alexander. And thank you for your service.
    I have a few questions about the interrogation of enemy 
combatants. I thought President Obama's first instinct was a 
good one when he said that we should look forward. But 
apparently, not everyone agrees with that. I notice a Member of 
the House of Representatives yesterday said that she wanted a 
full top-to-bottom criminal investigation.
    So these are my questions. Number one, what directions or 
guidance have you received from the President or his 
representatives or anyone at the White House concerning an 
investigation of the interrogation of enemy combatants?

                    INVESTIGATION OF INTERROGATIONS

    Attorney General Holder. Well, as we have indicated, for 
those people who were involved in the interrogation and who 
relied upon, in good faith, and adhered to the memoranda 
created by the Justice Department's Office of Legal Counsel, it 
is our intention not to prosecute and not to investigate those 
people.
    I have also indicated that we will follow the law and the 
facts and let that take us wherever it may. I think a good 
prosecutor can only say that. But so I think those are the 
general ways in which we view this issue.
    Senator Alexander. Thank you, Mr. Attorney General.
    Well, my second question would be should you follow these 
facts and continue in an investigation, if you are 
investigating lawyers at the Department of Justice who wrote 
legal opinions authorizing certain interrogations, wouldn't it 
also be appropriate to investigate the CIA employees or 
contractors or other people from intelligence agencies who 
asked or created the interrogation techniques or officials in 
the Bush administration who approved them?
    Or what about Members of Congress who were informed of them 
or knew about them or approved them or encouraged them? 
Wouldn't they also be appropriate parts of such an 
investigation?

             OFFICE OF PROFESSIONAL RESPONSIBILITY INQUIRY

    Attorney General Holder. Well, there is, as has been 
publicly reported, an OPR inquiry into the work of the 
attorneys who prepared those OLC memoranda. I have not reviewed 
it. It is not in final form yet. I have not reviewed that 
report.
    I will look at that report and make a determination as to 
what I want to do with the recommendations. It deals, I 
suspect, not only with the attorneys, but the people that they 
interacted with. So I think we will gain some insights by 
reviewing that report.
    Our desire is not to do anything that would be perceived as 
political, as partisan. We do want to look forward to the 
extent that we can do that. But as I said, my responsibility as 
Attorney General is to enforce the laws of this Nation. And to 
the extent that we see violations of those laws, we will take 
the appropriate action.
    Senator Alexander. So you would follow, the investigation 
could follow to the people who asked for the--I mean, if you 
are going to investigate the lawyers whose opinion was asked 
about whether this is legal or not, I would assume you could 
also go to the people who created the techniques, the officials 
who approved them, and the Members of Congress who knew about 
them and may have encouraged them?
    Attorney General Holder. Hypothetically, that might be 
true. I don't know. What I want to do is look at, in a very 
concrete way, what that OPR report says and get a better sense 
from that report what it says about the interaction of those 
lawyers with people in the administration and see from there 
whether a further action is warranted.
    Senator Alexander. My last question is once we begin this 
process, the question is where is the line drawn? According to 
former intelligence officials, renditions--and by 
``renditions,'' we mean moving captured people from our country 
to another country where they might be interrogated or even 
worse--those renditions were used by the Clinton 
administration, beginning in the mid 1990s to investigate and 
disrupt Al-Qaeda.
    That is the testimony before Congress from Michael Scheuer. 
He said it began in late summer of 1995. ``I authored it. I ran 
it. I managed it against Al-Qaeda leaders.''
    The Washington Post says that the former Director of the 
Central Intelligence Agency George Tenet said there were about 
70 renditions carried out before September 11, 2001, most of 
them during the Clinton years.
    Mr. Attorney General, you were the Deputy Attorney General 
from 1997 to 2001. Did you know about these renditions? Did you 
or anyone else at the Department of Justice approve them? What 
precautions were taken to ensure these renditions or any 
interrogations of such detainees on, by, or behalf of the 
United States Government complied with the law?

                    TREATMENT OF TERRORISM SUSPECTS

    Attorney General Holder. I think the concern that we have 
with renditions is renditions to countries that would not treat 
suspects in a way that is consistent with the treaties that we 
have signed. If there is a rendition taking a person to a place 
where the possibility is that person might be tortured, that is 
the kind of rendition I think that is inappropriate.
    Now, from my memory of my time in the Clinton 
administration, I don't believe that we had renditions where 
people were taken to places where we had any reasonable belief 
that they were going to be tortured. And that would be the 
concern that I would have.
    I wouldn't want to restrict the ability of our Government 
to use all the techniques that we can to keep the American 
people safe. But in using those tools, we have to do so in a 
way that is consistent with our treaty obligations and our 
values as a Nation.
    Senator Alexander. But I think you can see the line of my 
inquiry, which is that if we are going to ask lawyers who were 
asked to give legal opinions, we are going to investigate them. 
Jeopardize their career, second-guess them, and look back. Then 
where does that stop?
    I mean, do we not also have to look at the people who asked 
for those techniques, at people who approved those techniques, 
at Members of Congress who knew about and encouraged the 
techniques perhaps? Or in your case, in the Clinton 
administration, we don't know what the interrogations were 
then. Perhaps you do. And the question would be whether you 
approved them?
    I prefer President Obama's approach. I think it is time to 
look forward, and I hope he sticks to that point of view.
    Thank you, Madam Chair.

                         PROSECUTOR DISCRETION

    Attorney General Holder. Well, I will note that the OPR 
inquiry was begun in the prior administration and also will 
note that I am a prosecutor. I have been a career prosecutor 
and, I hope, a good one.
    And a good prosecutor uses the discretion that he or she 
has in an appropriate way and has the ability to know how far 
an inquiry needs to go to satisfy the obligations that 
prosecutor has without needlessly dragging into an 
investigation at great expense, both personal and professional, 
people who should not be there.
    And that would be the kind of judgment that I hope I would 
bring to making the determinations that you expressed concern 
about.
    Senator Alexander. Thank you, Madam Chairman.
    Thank you, Mr. Attorney General.
    Senator Mikulski. Senator Lautenberg.
    Senator Lautenberg. Thank you, Madam Chairman.
    And welcome, Mr. Attorney General. We have had the 
opportunity to work together in the past.
    As a matter of fact, nearly 10 years ago, the aftermath of 
the slaughter at Columbine--13 young people killed, 26 wounded. 
We worked to close the gun show loophole. It passed the Senate 
51-50. Vice President Gore breaking the tie. And at the time, 
you urged the House to follow the Senate's lead to close this 
loophole.
    It is 10 years later. The loophole still exists. Do you 
think it is time for Congress to try again to get this sensible 
legislation in place?

                              GUN VIOLENCE

    Attorney General Holder. Well, I think we have got to use 
our creativity. We have got to use the tools that we already 
have. We have to use the budget that we have proposed to come 
up with ways in which we arm our State and local partners with 
the tools that are necessary to combat the gun violence that I 
think still plagues our country.
    There are a variety of things that I think that we can do, 
and we want to work with this committee and other Members of 
Congress, listen to our State and local partners and try to 
determine what is it that we can do to help them with regard to 
reducing the gun violence that they still confront.
    So I think, as I said, there are a variety of things that 
we can do, and we will look at all of those possibilities and 
then, I think, make determinations on the basis of the 
interaction we have with our partners, the interaction that we 
will have in the executive branch, the consultations we will 
have with Members of Congress to decide exactly which tools are 
going to be the ones that will be the most effective.
    Senator Lautenberg. Yes, but doesn't it offend the 
sensibilities to know that guns can be bought at gun shows 
where your name isn't asked, no Social Security number is 
asked, no picture is taken, no reason for the gun purchase. Is 
it sporting? Is it hunting? None of that.
    And here, like again the Columbine massacre, a young woman 
bought these guns without question, gave them to the two 
fellows who killed all their friends. Doesn't it strike you as 
kind of an anomaly in our pursuit of law and justice, 
protecting our citizens, that this is kind of a foolish way to 
turn our back on these things? Which is what happens, Mr. 
Holder.
    I was traveling out West in a State where gun ownership is 
a matter of pride to lots of people. But the place was jammed, 
and there were unlicensed gun dealers selling weapons without 
asking questions.
    When I asked the question about sensibilities, I don't know 
whether that ever gets us to the end of line, but it sure 
sticks out like a flaw in our system as far as I am concerned. 
And I hope that you will be able to pursue this aggressively.
    The Recovery Act provides $10 million for the 
administration's Southwest border initiative, focused on 
reducing gun trade that fuels so much of the violence in 
Mexico. Can we be assured that the DOJ's efforts to stop the 
flow of guns to Mexico will not interfere with resources that 
are designed to stop domestic gun trafficking within our 
country?
    Attorney General Holder. That is actually a very legitimate 
concern, Senator. We are going to help our Mexican counterparts 
with the issues, the problems that they confront. We have drugs 
flowing from Mexico into this country, a lot of guns flowing 
from this country into Mexico.
    And the resources that we are moving to the Southwest 
border, we are doing on a temporary basis to try to help our 
Mexican counterparts with regard to their efforts and being 
mindful of the fact that as we move those resources to the 
Southwest border, that we are not doing anything that would 
weaken our efforts in other parts of the country.
    So we are trying to do it in a way that is sensitive to the 
needs of the places in which these agents and other personnel 
come from so that we can be helpful to our Mexican counterparts 
without weakening the efforts that we are making there.
    But I also think there is a collateral impact in helping 
our Mexican counterparts. To the extent that we stop the flow 
of arms into Mexico, we will necessarily confront, I suspect, 
people who are also illegally trafficking in guns in this 
country. And so, I think there is a collateral impact, a 
positive impact in helping our Mexican counterparts.
    But I think you are right to raise that concern, and I 
think it is one that we are being sensitive to.
    Senator Lautenberg. You and I had the opportunity to work 
together some years ago on the issue of racial profiling. It 
was unfortunately highlighted in our State of New Jersey, but 
across the country, we saw incidents of that nature. Now new 
leadership--how is DOJ addressing this continuing problem?

                            RACIAL PROFILING

    Attorney General Holder. Well, that is an issue that we 
focused on in the Clinton administration. It is something that 
will be a priority for this administration as well.
    Profiling is simply not good law enforcement. If you devote 
the limited resources that we have in law enforcement on the 
basis of profiling, on the basis of nontraditional techniques--
we have a good basis for predicates--you will focus on 
somebody, and the person who, in fact, you ought to be 
concerned about slips right on by.
    So I think we have learned a lot from the efforts that we 
did in the 1990s working with you and with others, and our hope 
would be to replicate those efforts. That is still something 
that is a priority for us. It has a negative impact also on the 
communities in which that is practiced and tends to breed 
disrespect for law enforcement and for the criminal justice 
system. And we have to avoid that.
    Senator Lautenberg. Thanks. The anomaly in New Jersey that 
took place was when our attorney general-to-be was stopped at a 
roadside rest place and questioned and so forth, and his--the 
only thing they could accuse him of was ``driving while 
black.'' And that is what caused that stop.
    The last question, Mr. Holder, in the last administration, 
the COPS program was nearly decimated with serious cuts in 
funding. The Recovery Act contains $1 billion for the COPS 
program, which I think is a great start.
    How do we make up for the deficit that occurred in having 
people trained and available as a result of the neglect of this 
program?

                              COPS PROGRAM

    Attorney General Holder. I think the billion dollars that 
the Recovery Act provides will give us a leg up on the efforts 
that we have to use to reinvigorate the COPS program. We have 
about $300 million in the budget for next year, and I think we 
have to keep that effort up.
    Our aim is to put 50,000 new police officers on the street. 
I think that what we have done in this first year is 
significant, but we must continue those efforts on a year-by-
year basis. I think we have to see a lot of what we are doing 
this year as really downpayments on efforts to revitalize 
programs that I think we should focus on and revitalize efforts 
that perhaps have been neglected in the recent past.
    Senator Lautenberg. And I close, Madam Chairman, with 
congratulations to the Attorney General for filling the 
positions that he has with highly capable people and for the 
zeal and the vigor with which you are pursuing your 
responsibility. And we thank you for that.
    Attorney General Holder. I look forward to working with a 
young man from New Jersey, who I think is going to be a great 
U.S. attorney.
    Senator Mikulski. Mr. Attorney General, Senator Shelby and 
I have another round.
    I would like to pick up on the Southwest border initiative 
and ask you some questions in that area. Much has been in the 
news about swine flu, H1N1. Reaction to that virus was at times 
a near panic, as we were concerned of a pandemic in the United 
States. But I believe there is another ``pandemic'' in the 
United States, and that is the insatiable demand for drugs.
    And as long as we have an insatiable demand for drugs, we 
are going to be funding the Taliban in Afghanistan and we are 
going to be emboldening and empowering the Mexican cartels. 
There is a great deal in your appropriations request about 
increased agents and the technology they need.
    First of all, let us deal with that. In other words, it 
sounds almost like a Petraeus strategy meets Mexico and our 
border, which is more troops, more gear, more technology. I 
don't dispute that. Obviously, it had an impact. But also we 
need to look at the other side of that, which is the insatiable 
demand.
    Let us talk about the actual violence and what is going on. 
This committee, meaning the Appropriations Committee, has 
already funded staff. We have provided five additional 
helicopters. We have been providing money, resources, and 
manpower.
    Could you tell us what exactly you intend to do with the 
Southwest border initiative? How many agents, how many 
attorneys are needed? What do you see, and what do you estimate 
the cost for that to be? Because we want to do that. Then I 
will come to the demand side.

                      SOUTHWEST BORDER INITIATIVE

    Attorney General Holder. Yes, in 2010, our request is for 
$231 million for the Southwest border. That is for about 1,200 
new positions--632 agents, about 110 attorneys. This would 
include 34 ATF agents, about 70 DEA agents.
    I think there is clearly a need for a balanced strategy, 
and we will talk about the other part of that in your next 
question, for us to have a strong enforcement presence to deal 
with the problem of the drugs flowing into our country. But I 
think there also has to be an effort to deal with the demand 
side as well. So with regard to the enforcement side, that is 
what we are requesting in the 2010 budget.
    Senator Mikulski. So, as I understand, essentially for 
enough manpower, you hope to deploy 632 agents and over 100 
attorneys. As well as 528 agents for the Marshals Service. Are 
those new agents, or are those agents that you are going to 
redeploy from other areas?
    Attorney General Holder. I believe these are all new 
positions. The 1,200 or so, the 1,187 are all new positions 
with regard to agents and attorneys.
    Senator Mikulski. You know, we are placing an awful lot of 
stress on the Marshals Service, and I just want to bring this 
to your attention in a spirit of cordiality. We have asked them 
to take on the Adam Walsh Act in addition to the protection of 
the judges, the transportation of prisoners, who are 
increasingly violent, and the pursuit of the fugitive warrants. 
And now they are going to be intensively involved in the 
Southwest border initiative.
    And I would hope, as we go through this process, in 
addition to looking at the FBI, DEA and ATF, that we also look 
at what we are asking the marshals to do for this initiative, 
which is much needed, in addition to what else have we have 
asked them to do regarding the Adam Walsh Act, which the 
ranking member has addressed. We want to support you in that.
    But let us go to the first line of defense, which is local 
law enforcement in the border communities, and then also the 
whole issue of the demand side. We see that the President has 
asked for more cops on the beat. But when we look at our 
stressed border communities, do you see additional funds and 
resources going into those local law enforcement agencies? 
Because crime and violence will flow back and forth across the 
borders. How do we look at how we are partners with our border 
law enforcement?

                 ASSISTANCE TO STATE AND LOCAL PARTNERS

    Attorney General Holder. Well, we have in our budget 
request a total of $2.6 billion for State and local funding, 
and that is in addition to money that is included in the 
Recovery Act of about $4 billion. And I think that is a 
recognition of the fact on the part of this administration that 
for us to be really effective in our law enforcement effort, we 
have to have good State and local partners, and to the extent 
that we can, we need to meet the needs that they have. We have 
to assist them to the extent that we can.
    The Southwest border is a place of particular attention for 
us, and we will be helping our State and local partners there, 
drawing from the pools that I have talked about. But also the 
significant amounts of money that we have asked for is a 
recognition of the fact that the attention that we devote to 
the Southwest border has to be replicated in other parts of the 
country as well.
    We need our State and local partners to have the technology 
and the resources that they need. And we have, as I said, come 
up with pretty substantial amounts of money both in terms of 
State and local funding, plus the COPS program to help our 
State and local partners.
    Senator Mikulski. Well, let me ask you this, conceptually. 
We want to support our border partners, our border communities. 
But what I don't want is for it to be at the expense of other 
States. So while I want to protect the Southwest border 
initiative, I also want to protect southwest Baltimore.
    I believe Southwest border violence is a very significant 
threat and if we don't intervene aggressively now, it will have 
horrific consequences to our security. But at the same time, we 
don't want them competing with Alabama, Utah, Arkansas, et 
cetera, for available resources.
    Is that the way you see it for your cops and your 
interventions and interdictions and preventions?
    Attorney General Holder. Yes, and that is why I think our 
requests are as large as they are. So that we will have the 
ability to do all of the things that you just talked about, 
which is to give attention to the Southwest border, but also 
not lose focus on the very important priorities that we have in 
other parts of the country.
    Senator Mikulski. Yes, but are they going to be 
sequestered, or if there is going to be funding for cops on the 
beat, will there be a focus on the Southwest border communities 
in addition to other funds for other State and local 
jurisdictions to compete? Or is it all one big pot?
    Attorney General Holder. Well, we have money that is set 
aside for the Southwest border, but we also have substantial 
amounts of money that go for other State and local efforts that 
we are making. So there is not necessarily that competition.
    I would also say that when we look at the Southwest border, 
we have to understand that the efforts that we make there will 
have residual positive impacts in other parts of the country. 
When we announced the takedown of Project Xcellerator 6 or 7 
weeks or so ago, we indicated that some of the people who were 
arrested in connection with the Mexican cartels, and we think 
Southwest border, were involved were from Maryland. And we had 
arrests in Maryland in connection with that and in a variety of 
other States.
    So that----
    Senator Mikulski. But people in Maryland, Alabama, and so 
on are using drugs. I don't want to get into semantics about 
what is sequestered. I think we have got a good picture and 
really want to support the policy. But I want to go to the 
demand side, and I really salute Secretary Clinton, when she 
went to Mexico, and took ownership for our insatiable demand 
for drugs.
    And I just want to speak about my own beloved Baltimore. We 
were on our way. We had a great renaissance momentum, and then, 
bang, in came cocaine. And we have never recovered from it. 
Cocaine really took generation after generation of young people 
in the Baltimore community, across all ethnic and class lines. 
It brought in so much money that it enabled crooks to arm 
themselves at times where they had more and better arms than 
our cops on the beat, et cetera.
    Each administration has been rather tepid, timid and uneven 
in dealing with demand. We have tried ``just say no.'' Just say 
no a little bit more. Let us do a little bit more here or 
there.
    With the Obama administration and your leadership--and I am 
looking to Secretaries Sebelius and Arne Duncan, just across 
the board, is the administration developing a comprehensive 
strategy to really work at the local level? Because it has got 
to be fought at the local level to deal with this demand side.
    Attorney General Holder. Well, I would totally agree----
    Senator Mikulski. And I am not talking about hugs for 
crooks. I am talking about the kind of juvenile justice 
prevention programs, et cetera, where we do this early 
intervention.

                       JUVENILE JUSTICE PROGRAMS

    Attorney General Holder. No, I totally agree with you. If 
you look at the request we have made on the juvenile justice 
side, we have a request for $317 million. The Drug, Mental 
Health, and Problem-Solving Courts Program, we have $59 
million.
    And there is a recognition of the fact that we have to do 
something on the demand side. As a local judge here in 
Washington, DC, I witnessed that.
    Senator Mikulski. You saw it.
    Attorney General Holder. I saw that. I sent, unfortunately, 
too many young men and women to jail because of drug problems 
that they had and the crimes that they committed as a result.
    Senator Mikulski. But let me ask a question, are you 
developing a comprehensive approach with other Cabinet members? 
Is that underway?
    Attorney General Holder. Yes, we are.
    Senator Mikulski. Good. Well, we will come back. I know 
Senator Shelby has to ask questions, and I know your time is 
very limited.
    Let me just conclude by saying some things are really 
working well. And one of the things that I know you witnessed 
as a lawyer, a resident, a judge in this town, is the way we 
all worked so well on the sniper case. And it is these local 
task forces that I am going to emphasize.
    Do you remember when Washington was gripped by the fear of 
the sniper? All games were canceled for children. We were 
afraid to get out of our car and walk into a Burger King. A 
beloved FBI employee was shot coming home from Home Depot.
    And the fact that with our local law enforcement around the 
Beltway working with the Federal officials, we were able to 
catch that sniper. That kind of cooperation continues to exist 
and what we need to build on.
    I am very proud of the kind of task forces that are being 
used in Maryland right now, and I hope that we could have the 
emphasis on task forces. One just broke up a cell phone ring in 
Maryland State prisons, where guys were sitting there ordering 
lobster, shrimp, and ordering contract killing. But thanks to 
the task force approach, we were able to intervene and stop 
them.
    And while we are doing fighting against violent, repugnant 
people, we also have now a task force against mortgage fraud, 
where another type of predator is stalking our communities, 
particularly our low-income residents. So we have got a lot to 
build on, and if we can work together, I think we can make a 
difference and also make that change that President Obama 
wants.
    So I want you to know I think all of us feel that in many 
ways at the local level it is working if we can keep that 
momentum going through these task forces.
    Senator Shelby.
    Senator Shelby. Thank you, Madam Chairman.
    Mr. Attorney General, I want to go back into the area that 
Senator Alexander was questioning you earlier on. I believe you 
went to the Department of Justice as the Deputy Attorney 
General in 1997. Is that correct?
    Attorney General Holder. That is correct.
    Senator Shelby. I remember. During that time--and you were 
there from 1997 until the Bush administration went into office, 
2001. During that time, I happen to have been the chairman of 
the Intelligence Committee from 1997 to the summer of 2001, 
after you had left. And of course, we interacted with the 
Justice Department.
    As the Deputy Attorney General, you were involved. You were 
a very active deputy, as I recall, and the Intelligence 
Committee dealt with, of course, the CIA and everything that 
goes on.
    Senator Alexander went through some chronological events 
coming from Director Tenet and others as to what happened as 
far as rendition and interrogation of would-be terrorists and 
terrorists during the period before--during the Clinton years 
when you were active there.
    I wasn't clear as to the answer a few minutes ago. So I am 
going to ask this question again. During your tenure as the 
Deputy Attorney General of the United States, 1997 to 2001, did 
you know about these renditions? And if you didn't know, why 
didn't you know because people in Justice knew?

                        INTERROGATION TECHNIQUES

    Attorney General Holder. Now I would have to look back. I 
don't know the exact numbers that Senator Alexander----
    Senator Shelby. No, did you know about them? I didn't say 
how many. That was Tenet's testimony, I believe, that has been 
in the record and in the papers that there were 70 or more. But 
did you know about them generally, and did you know about 
interrogation techniques at that time?
    Attorney General Holder. Well, I certainly knew generally 
that there were renditions that were occurring. I can't 
honestly say that I knew about specific interrogation 
techniques that were being used at that time.
    Senator Shelby. Would you check the record and furnish this 
to the committee? We think this is an important question 
because a lot of this just didn't start during the Bush 
administration is what I am saying. This interrogation, 
rendition of terrorists had been going on before the Bush 
administration.
    Attorney General Holder. I think, as a distinction, and 
that is the focus of the concern that we have with regard to 
Guantanamo and the things that preceded it is that we had 
American agents, representatives of our Government perhaps, 
involved in the use of techniques that we didn't think were 
appropriate.
    Now I will certainly look at the records----
    Senator Shelby. Will you do that, just for the record? And 
did you or the Attorney General that you were working with, day 
in, day out, or anyone else under your jurisdiction at the 
Department of Justice then approve these renditions and 
interrogations? You had to. But I will wait for your record to 
show.
    Attorney General Holder. We will review those records, and 
I will provide you with a response.
    Senator Shelby. And Mr. Attorney General, if so, what 
precautions were taken to ensure that the renditions and any 
interrogations that were going on in the intelligence 
communities regarding such detainees, what precautions were 
made? In other words, what steps did you go through to see that 
they complied with the law at that time? Can you furnish that 
for the record?
    Attorney General Holder. Sure. I will go through that----
    Senator Shelby. You might have to go back because I know it 
was a while back. But you were in a very important job, as I 
remember interacting with you.
    Attorney General Holder. We will look at those records and 
see what are the numbers, to the extent that I can provide 
those.
    Senator Shelby. Absolutely.
    Attorney General Holder. And the protections that we used. 
It may be that I have to do this in a classified way, but we 
will provide you with those.
    Senator Shelby. That is okay. We can do that.
    Attorney General Holder. That is fine.
    Senator Shelby. Okay. I would like to get into some other 
things now.
    The GAO study. In April 2009, Mr. Attorney General, a GAO 
study concluded that ICE is not participating or contributing 
to several important intelligence and coordination centers. As 
a result of this lack of cooperation, according to the 
Government Accountability Office, our Government's war on drugs 
is not as productive as it should be.
    The GAO recommended that the Secretary of DHS direct ICE to 
contribute all of its relevant drug-related information to the 
DEA Special Operations Division and ensure that if ICE fully 
participates in both SOD and in the OCD fusion center.
    My question to you, is ICE contributing all of its relevant 
drug-related information to the DEA's Special Operations 
Division? And if not, why not? And if you don't know that, if 
you could furnish that for the record?

                     DRUG INTELLIGENCE INFORMATION

    Attorney General Holder. I share the concern that you have 
expressed, and I have raised that with Secretary Napolitano, 
who I have worked with as a U.S. Attorney in the Clinton 
administration. And we are, together, trying to address that 
issue and trying to make sure that both of our agencies are 
contributing all of the intelligence information that we have. 
And given the resources, given the agencies that we have stood 
up, I think we will make progress in that regard.
    Senator Shelby. Are there other agencies that have not 
participated or refused to participate? It looks to me like you 
have got to coordinate this, and the Department of Justice 
should be right at the top of it.
    Attorney General Holder. Well, I would like to think that 
we have a special expertise in the Justice Department in that 
regard.
    Senator Shelby. Absolutely.
    Attorney General Holder. And we will work with our partners 
at DHS to ensure that ICE becomes fully involved in that 
effort.
    Senator Shelby. Ballistics, very important, I think. 
General, Secretary--I want to call him ``Secretary.'' Attorney 
General Holder, while the President recently endorsed the use 
of ballistics imaging as part of the effort to end gun violence 
along the Southwest border, the committee has been informed 
that DHS, Department of Homeland Security, is not coordinating 
their gun investigations through the ATF, which is----
    Are there any official memorandums of understanding or 
policies in place that you know about requiring the use of 
NIBIN by DHS law enforcement? And if you want to do this for 
the record, that is okay. And could you provide a copy to the 
committee, the chairman, and others, if you could?
    And what is the extent of DHS, Department of Homeland 
Security's coordination with the ATF's project Gunrunner, if 
you know? And if you don't know offhand, I know I am asking you 
a lot of questions.
    Attorney General Holder. Sure.
    Senator Shelby. But we would like to know for the record 
because we fund all these things.

                    COORDINATION BETWEEN DOJ AND DHS

    Attorney General Holder. Right. We will provide for the 
record answers to the specific questions that you have asked. 
But I will say that, generally, I think Secretary Napolitano 
and I both agree that coordination between DHS and the Justice 
Department has not necessarily been as good as it needs to be. 
That is an issue.
    [The information follows:]
            NIBIN, Project Gunrunner, and Ballistics Imaging
    The Department does not have an MOU in place with DHS that requires 
their use of NIBIN. The Department is working towards increased 
communications with DHS but is not aware if DHS has a policy that 
requires their use of NIBIN. Within the Department of Justice, ATF is 
preparing an internal directive that outlines a process for entering 
information into NIBIN. Once the directive is issued, the Department 
will furnish a copy to DHS to provide guidance so that they can 
participate in Project Gunrunner.

    Attorney General Holder. And let us be very frank about 
that, that we have not worked together in a way that is 
efficient and effective.
    Senator Shelby. But the Justice Department has got a lot of 
expertise in this area, hasn't it?
    Attorney General Holder. Oh, absolutely. And DHS brings 
things to the table as well. We need to come up with ways in 
which we coordinate our efforts so that we can be most 
effective. But the concerns that you raise are very legitimate 
ones, and we are trying to address them.
    Senator Shelby. Are you going to be assertive in this area 
to make sure that the expertise of Justice is shared and used 
in this area?
    Attorney General Holder. I wouldn't have taken this job 
unless I was here to advance the interests of an institution in 
which I grew up and which I love. I have great faith in the men 
and women who work in this department. I think we are experts 
in a whole bunch of areas and----
    Senator Shelby. But some of us on the Appropriations 
Committee, both Democrats and Republicans, we see at times 
parallel initiatives that we don't need, and it is very costly, 
in other words, to reinvent the wheel. And you have got the big 
wheel in Justice, and we want to make sure that you are well 
funded and keep it.
    Attorney General Holder. We want to be well funded. I will 
be assertive. But we also want to work with members of this 
committee to identify those areas where you think that there is 
duplication of effort so that we minimize that and that we work 
efficiently together. As I said, we want to be working in 
partnership with you all as well.
    Senator Shelby. Absolutely.
    Madam Chairman, if you would let me, one last thing? I 
mentioned in my opening statement that there are a number of 
Adam Walsh provisions that will soon expire. Does the 
Department have a legislative plan regarding these expiring 
provisions of the Adam Walsh Act, which I think and others 
thought was a good piece of legislation? And does the 
Department support reauthorization of these provisions designed 
to protect children from pedophiles and sexual predators?
    Attorney General Holder. Yes. We support the Walsh Act. We 
have asked for $381 million, which is a 5 percent increase over 
fiscal year 2009, and that would support 50 new Marshals 
Service deputies and a $16 million increase there as well. The 
Walsh Act we think is important, and it is something that we 
support.
    Senator Shelby. Thank you.
    Thank you for your indulgence, Madam Chairman.
    Senator Mikulski. Excellent questions, Senator Shelby.
    In the order of arrival, I am going to turn to Senator 
Pryor, one of our newest members and then, of course, have as 
our wrap-up hitter, the chairman of the Judiciary Committee. We 
are so fortunate to be able to have him as both the premier 
authorizer also to bring that wisdom and skill and experience 
to appropriations.
    Senator Pryor.
    Senator Pryor. I agree. Thank you, Madam Chair.
    Senator Mikulski. Go ahead.
    Senator Pryor. Thank you very much.
    General Holder, let me start with something that the last 
administration attempted to do, and that is they tried to--in 
their fiscal year 2009 budget, they tried to consolidate the 38 
Federal law enforcement assistance programs like COPS, et 
cetera, into three competitive grant programs. They also, in 
our view, were going to try to under fund those.
    But do you have any plans to do any consolidation along 
those same lines?

               GRANTMAKING TO STATE AND LOCAL GOVERNMENTS

    Attorney General Holder. I am not sure I am totally 
familiar with what the prior administration did. Our hope is to 
have sufficient amounts of money in the programs that we think 
are important, COPS being among them. Certainly Byrne and JAG 
grants.
    We want to have flexibility so that we can be responsive to 
the needs of our State and local partners and be most effective 
in using the resources that we have.
    Senator Pryor. I would encourage you, if you are thinking 
about any changes, to certainly reach out to State and local 
people because they really rely on those grants, and that is, 
in a lot of ways--in a lot of places and a lot of ways, that is 
really critical funding on a local level.
    Let me ask about--there was a story this morning in the 
Washington Post about the--it wasn't totally about the SCAAP 
program, the State Criminal Alien Assistance Program. As I 
understand it, are you going to try to eliminate that program?
    I know there has been some problems. Some of the States and 
local law enforcement have not been real pleased with some of 
the administration of it. But I think that many of them have 
said that the program is very popular, et cetera.
    Do you know the status of that and what the plan is for 
that, and why?
    Attorney General Holder. We are not asking for additional 
monies for SCAAP in the budget for next year. But one of our 
priorities is making sure that our Nation's borders are 
protected. And although we seek to eliminate funding for SCAAP, 
we have, we think, other monies in the budget. There is $3.4 
billion in DOJ resources to help curtail illegal immigration 
and combat the violence associated with border gangs.
    We think that the SCAAP program, although it has had a 
value, we think we can give greater value by dealing with the 
problem in an enforcement way as opposed to using the limited 
resources that we have to help on the detention side.
    I will say, however, that this is obviously a budget 
proposal that we have, and to the extent that you have strong 
feelings about the SCAAP program, I would be more than glad to 
interact with you, talk to you about that, and see if there are 
ways in which we can meet your concern.
    Senator Pryor. Yes, I would like to talk about that. I just 
want to make sure that we are not dropping something that we 
really need. If you think that you have really got it covered 
in other ways, other areas, I certainly would like to hear more 
about that.
    The last question I really had was about this issue where 
the--I think Congress Daily actually had a little story on it 
today about the dispute between the Department of Justice and 
the Inspector General's Office regarding the FBI's terrorist 
watch list. The IG has been critical of the FBI to the extent 
that the FBI apparently quickly adds and quickly removes people 
from the list.
    I would like to ask you about that criticism, if we can 
call it that, from the IG and how you respond to that and if 
there is any changes that need to be made?

                 IG REPORT ON THE TERRORIST WATCH LIST

    Attorney General Holder. Yes, we have a great IG, Glenn 
Fine, I have worked with and known him for a long time.
    I have not actually seen the report, but it is my 
understanding that the concerns that were raised in the report 
are serious ones. But that with regard to the issues that were 
raised by the inspector general, they have actually been met. 
Those concerns have been met by the FBI. Changes have been made 
in response to the issues that were raised by the inspector 
general.
    But I will be reviewing the report, and I will be talking 
to the director of the FBI just to make sure that that, in 
fact, is the case. But that is my understanding.
    Senator Pryor. Great. Yes, if you could--if that is not 
correct or if you check back on that and you have a concern 
there, I wish you would check back with us on that.
    Attorney General Holder. I will do that.
    Senator Pryor. Thank you very much.
    Thank you.
    Senator Mikulski. Thank you, Senator Pryor.
    I just want to comment. On June 4, we are going to hold our 
hearing on the FBI budget request, and the committee will do 
something different this year. We will hold a public hearing on 
the public programs of the FBI. But as you know, after the 
terrible attack on 9/11, we gave the FBI the responsibility of 
being an agency within an agency, with a significant national 
security responsibility.
    The committee has observed over the years that there are 
certain questions we can't ask in a public setting. One of 
which would be the greater detail of what the gentleman just 
raised that we need to pursue. So we will have a public hearing 
with the FBI and followed by a classified one on how the FBI is 
waging the global war against terrorism, and we look forward to 
your active participation.
    Now, we turn to the number one on Judiciary and number one 
advocate of all that is good about the Justice Department.
    Senator Leahy. I figure being number one at the Judiciary 
is a punishment for past sins, and you and I, Madam Chair, 
remember the good nuns explaining how that works.
    Senator Mikulski. Do you want me to sit here and remember 
past sins?
    Senator Leahy. No, no, no. I remember the good nuns telling 
us about how it catches up with us.
    Mr. Attorney General, it is good to see you. And I know you 
will also be before the Judiciary Committee, but I wanted to 
ask you about the Justice for All Act. In 2004, we passed that, 
a number of us--Republicans and Democrats together. It is a 
crucial bipartisan law, trying to improve the quality of 
justice for all Americans using DNA evidence, so forth. We 
negotiated carefully, worked it.
    Unfortunately, the past administration failed to fund some 
of the key programs created by this important law. And it was a 
consistent struggle. We had the law. We didn't have the funding 
of programs, including the Kirk Bloodsworth Post Conviction DNA 
Testing Grant Program, capital representation, capital 
prosecution improvement grants, Debbie Smith DNA Backlog Grant 
Program, and other activities.
    Will you work with me and with the committee to fully fund 
these vital programs and also to reauthorize the Justice for 
All Act?
    Attorney General Holder. Yes, Senator. I am looking around 
here, trying to find my--I have got a great answer to that 
question. I just can't put my hands on it. But, yes, we will 
work with you to ensure that that act is funded in an 
appropriate way.
    The concerns that are addressed by the act are concerns 
that this administration shares. And so, we look forward to 
working with you in that regard.
    Senator Leahy. And I would note that we had people across 
the political spectrum who came together and worked on that. 
Many of the Senators in both parties were, like yourself, 
former prosecutors. I guess you are now the prosecutor for the 
country, but you understand what I am saying.
    And I think, as every prosecutor knows, two things you 
don't want to happen. One, you don't want a guilty person to go 
free, but you also want to make sure when you are prosecuting 
somebody that you have got the right person. Because if you 
don't, aside from the miscarriage of justice, the person who 
committed the crime is still out free, and we are not as safe 
as we think we are.
    Now last week, the 9th Circuit Court of Appeals reversed 
the decision to dismiss the case Mohamed v. Jeppesen on State 
secrets grounds. You know that one. The plaintiffs are suing a 
flight company for allegedly helping the CIA transport them 
overseas, where they were tortured.
    The case had been dismissed at the pleading stage. The 
Government used State secrets, and so the trial court just cut 
it off at that point. And the appeals court said that you 
dismiss the case at the pleading stage, it would effectively 
cordon off all secret Government actions from judicial 
scrutiny, immunizing the CIA and its partners from the demands 
and limits of the law.
    I agree with the court. I have introduced the State Secrets 
Act, along with others. We have been asking for weeks for the 
Justice Department's position with respect to this bill. We 
haven't gotten an answer. So I will ask you. Do you support the 
State Secrets Protection Act?

                         STATE SECRETS DOCTRINE

    Attorney General Holder. Well, I think our administration 
shares your concern about the use of that doctrine. In fact, I 
have asked that a review be conducted of all the cases in which 
the State secrets doctrine has been invoked. We have about 20 
cases or so where it has been used. The report is just about 
complete. It is my hope to share that report, make it publicly 
available.
    What I have asked the people in the Justice Department to 
do is look at all of these cases and see if we appropriately 
are using the State secrets doctrine in each of those cases. Is 
there a way in which we can use it in those cases where we 
think it is appropriate in a more surgical way so that we don't 
have to perhaps dismiss the whole case? And so, that review is 
just about done, and I would be prepared to share that 
information.
    With regard to the piece of legislation that you have 
indicated, I want to look at that in light of the report that I 
get from the task force that we created and see if there are 
ways in which we can work together to deal with the issue that 
we do share that concern that you have.
    Senator Leahy. Attorney General, we have, you and I have 
talked a lot about the Department of Justice, and I don't begin 
to understand all of the issues that come on your desk. But 
this is an important one, and I would like, as soon as the 
review is done, as soon as it can be shared, I would appreciate 
not only that, but then a position of the department on the 
piece of legislation.
    Brought up today in committee, we put it over. I did that 
knowing I was going to be talking to you today and knowing that 
your review is underway, and it may take a while.
    We are not having a markup next Thursday, as we normally 
do. I will be in Vermont, where I will watch my closest friend 
get an honorary degree from my alma mater. We will celebrate 
our 47th wedding anniversary this year, and if I want to make 
sure we celebrate, I will be there at the graduation.
    My last question, if I might, Madam Chair? In light of what 
I consider shocking opinions by Jay Bybee and Steven Bradbury 
and others nominated by President Bush to run the Office of 
Legal Counsel, these opinions secretly authorized interrogation 
techniques. I am looking down the list here that included 
shackling naked people to the ceiling to keep them awake, sleep 
deprivation of up to 11 days at a time, forcing them into a 
small box for up to 18 hours at a time, waterboarding, and so 
on.
    I know you are looking at OLC. And for those who may be 
watching and don't understand, OLC opinions become basically de 
facto rules of law within the administration. Right now, you 
don't have a head of OLC. How critical is it for the Senate to 
confirm Dawn Johnsen as the Assistant Attorney General in 
charge of OLC?

                      CONFIRMATION OF DAWN JOHNSEN

    Attorney General Holder. That is probably my top priority 
now, Senator. OLC is, as you said, an integral part of our 
effort to protect the American people. There is a lot of 
national security work that OLC does. OLC handles a lot of 
other matters for the department.
    They are among the best and brightest in the Justice 
Department. And although we have very capable people who are 
there and a very capable acting person who is leading OLC, 
there is a certain solidity and continuity that you don't have 
unless you have a permanent person there.
    And so, I would hope that we could have Dawn Johnsen, who 
is an extremely qualified lawyer, who will be a great head of 
OLC, confirmed as soon as possible.
    Senator Leahy. Thank you very much.
    I hope so, too. We passed her out of committee. She is on 
the floor. I saw that the senior-most Republican in the Senate, 
Senator Lugar, said he will vote for her, and I just wish we 
would go forward because the OLC is so extremely important. It 
is like the Department of Justice's court, and I would like 
that to go forward.
    So, Madam Chair, thank you. I will submit my other 
questions for the record.
    Senator Mikulski. Thank you very much, Senator Leahy. And I 
note when you talked about your best friend getting an honorary 
degree, I gather it is your beloved wife, Marcelle? Is that 
correct?
    Senator Leahy. It is. It is, indeed. And so, I will take 
off.
    Senator Mikulski. Well, Senator, with all due respect, she 
shouldn't only get an honorary degree, but if we were talking 
about saints and sinners before, you know what category she is 
in.
    Senator Leahy. It will be her, not me.
    Senator Mikulski. Well, congratulations to her.
    Senator Leahy. Thank you. And I will tell Marcelle you said 
that.
    Senator Mikulski. Mr. Attorney General, that concludes our 
questions. If there are no further questions this morning, 
Senators may submit additional questions for the subcommittee's 
official record. We are going to request the Department of 
Justice response within 30 days.
    I would also like to add thank you for your testimony 
today, and I would also like to add we are lucky to have you.
    Attorney General Holder. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. I think President Obama has made an 
excellent choice in selecting you. You come with such an 
incredible breadth of experience from working at the NAACP 
through prosecutor days, judges, Justice Department.
    But you are also at the point in this career you could be 
in private practice, in control of your own time. You have 
three wonderful children and a wife who is a physician and 
quite distinguished in her own right. The fact that you are 
willing to take on a very onerous responsibility of 
international as well as domestic responsibilities is 
heartening.
    I am already hearing about all these wonderful young people 
who want to come to work at Justice Department, and they don't 
call it the Justice Department. They say ``at Justice.'' They 
want to ``work at justice,'' and they want to work at the 
Department of Justice to achieve it. And I think your own 
reputation is also already attracting people who want to come, 
whether they are the lawyers or the backup people or those that 
are going to run the prevention and intervention programs.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Patrick J. Leahy

             VIOLENT CRIME/SUPPORT OF LOCAL LAW ENFORCEMENT

    Question. A major focus of both the Judiciary Committee and the 
Appropriations Committee so far this year has been ensuring that the 
Federal Government provides the assistance to State and local law 
enforcement that is so important to restoring our economy and keeping 
our communities safe.
    With the massive economic crisis facing us, we see conditions of 
unemployment and hopelessness which can lead to increases in crime. 
States, cities, and towns face budget shortfalls and decreases in tax 
revenues and were at risk having to abandon innovative crime prevention 
strategies and to drastically reduce police forces.
    We have taken major steps toward returning to this successful 
approach. We included nearly $4 billion for State and local law 
enforcement in the economic recovery and investment package enacted 
earlier this year. That package included funding of vital programs like 
Byrne grants, rural drug enforcement assistance, and the Community 
Oriented Policing (COPS) program, as well as funding for critical crime 
victims programs. The Judiciary Committee will be holding a hearing 
next week to look at how this funding has been used to support local 
law enforcement efforts in communities across the country.
    Answer. The administration is committed to fully funding the COPS 
program as an effective tool to combat crime and help address police 
brutality and accountability issues in local communities. The research 
available regarding COPS funding clearly validates the program as a 
crime fighting strategy. In its final report on the effectiveness of 
COPS Office grants, the Government Accountability Office (GAO) found 
that COPS funding resulted in significant increases in the number of 
sworn officers and produced significant declines in the rates of total 
index crimes, violent crimes and property crimes. Specifically, the 
declines in crimes attributable to COPS expenditures accounted for 10 
percent of the total drop in crime from 1993 to 1998 and approximately 
5 percent from 1993 to 2000. Further, for every dollar in COPS hiring 
grant expenditures per capita there was a reduction of almost 30 index 
crimes per 100,000 persons.
    In a 2007 policy brief from the Brookings Institution, Yale 
University economist John Donohue and Georgetown University economist 
Jens Ludwig state that the COPS program contributed to the drop in 
crime during the 1990s and is one of the most cost-effective options 
for fighting crime. They estimate that each $1.4 billion invested in 
the COPS program is likely to generate a benefit to society from $6 
billion to $12 billion.
    Equally important is the demand we saw for this year's COPS Hiring 
Recovery Program (CHRP). During the application period, COPS fielded 
more than 17,000 calls from agencies detailing failing local economies 
and rising crime rates. For the $1 billion in funding provided by ARRA 
to help create or save approximately 5,500 law enforcement positions 
throughout the country, the COPS Office received requests from more 
than 7,200 State, local and tribal law enforcement agencies asking for 
more than $8.3 billion for nearly 40,000 officers.
    The administration and the Department of Justice strongly support 
providing resources for crime prevention. The Department's Office of 
Justice Programs (OJP) plays a leading role in exploring new crime 
prevention strategies, evaluating their effectiveness, developing best 
practices for crime prevention, and helping State, local, and tribal 
governments implement innovative, effective crime prevention 
initiatives. Many of OJP's largest and best-known programs, such as the 
Edward Byrne Memorial Justice Assistance Grants, Byrne Competitive 
Grants, Juvenile Accountability Block Grants, Juvenile Justice Part B 
Formula Grants, Missing and Exploited Children's program and Title V 
Community Prevention Grants programs, support prevention programs. In 
fact, OJP's fiscal year 2010 President's Budget request includes 
approximately $1 billion to support crime prevention programs. This 
includes substantial increases for the Residential Substance Abuse 
Treatment and Second Chance Act/Prisoner Reentry programs as well as 
two new prevention-oriented programs, the Problem-Solving Courts and 
Community-Based Violence Prevention Initiatives. Community-Based 
Violence Prevention Initiatives, adapted from the best violence 
reduction research in the public health field over the last several 
decades, collaborates with community-based organizations and focuses on 
street-level outreach, conflict mediation, and changing community norms 
to reduce violence, particularly shootings. The Problem-Solving Courts 
Initiative builds on the success of OJP's existing Drug Courts and 
Mentally Ill Offender Act/Mental Health Courts initiative by provide 
grants, training, and technical assistance to help State, local, and 
tribal grantees develop and implement problem-solving court strategies.
    Question. At a Judiciary Committee hearing in January, police 
chiefs and policy experts testified that an infusion of Federal money 
for State and local law enforcement would quickly create jobs, bring 
money into the economy, and make neighborhoods safe for the businesses 
and homeowners essential to local economies. Do you agree that Federal 
support for State and local law enforcement is integral to our economic 
recovery?
    Answer. When President Obama signed the American Recovery and 
Reinvestment Act (ARRA), I stated that this funding is vital to keeping 
our communities strong and that as local law enforcement professionals 
struggle with the current economic crisis, we can't afford to decrease 
our commitment to fighting crime and keeping our communities safe. The 
local law enforcement grants awarded under ARRA will help ensure States 
and localities can make the concerted efforts necessary to protect our 
most vulnerable communities and populations.
    When the administration began discussions about how best to revive 
the lagging economy, creating jobs was the number one priority and the 
COPS program, according to former Associate Attorney General John 
Schmidt who testified at that January hearing, ``has obvious value in 
terms of economic stimulus.'' The funding awarded under CHRP will go 
directly to State, local and tribal law enforcement and will both 
stimulate our economy by creating jobs and keeping our citizens safe.
    The American Recovery and Reinvestment Act of 2009 provides more 
than $4 billion in assistance for State and local law enforcement in 
addition to the $2.9 billion in funding provided for State and local 
law enforcement in the Appropriations Act of 2009. The fiscal year 2010 
President's budget proposal, if enacted as submitted, would provide an 
additional $2.6 billion for State and local law enforcement assistance. 
As part of the fiscal year 2010 budget, the administration is proposing 
a substantial increase for the Second Chance Act program, which will 
combat criminal recidivism among offenders released from the Nation's 
prisons and jails.

                   INTELLECTUAL PROPERTY ENFORCEMENT

    Question. Last Congress, I introduced the Enforcement of 
Intellectual Property Rights Act, which became law in October. The law 
authorized more resources for the Computer Crime and Intellectual 
Property Section and for State and local law enforcement grants. 
Intellectual property rights promote innovation and creativity, long 
recognized as major drivers of the United States economy. Protecting 
intellectual property, in my view, is therefore both a law enforcement 
objective and an important component of our economy recovery efforts. 
How would the Department use the resources authorized by Congress last 
year to improve its effort in combating criminal intellectual property 
theft?
    Answer. The Department is committed to fulfilling the goals of the 
Prioritizing Resources and Organization for Intellectual Property 
(``PRO IP'') Act of 2008 to strengthen Federal intellectual property 
enforcement efforts and improve coordination among Federal agencies in 
meeting our intellectual property protection challenges. The PRO IP Act 
contains a number of important tools to strengthen the ability of the 
Federal Government, State and local law enforcement, and intellectual 
property owners to protect intellectual property. The Department 
appreciates Congress' decision thus far to fund Section 402(a) of the 
PRO IP Act authorizing additional FBI Special Agents dedicated to 
investigating intellectual property offenses. As appropriated, the FBI 
will be able to deploy 31 such Special Agents around the country. 
Specifically, the FBI has allocated 26 agents to support many of the 
Computer Hacking and Intellectual Property Units nationwide as well as 
assign 3 agents and two supervisors, who will be housed at the IPR 
Coordination Center, to support the Computer Crime and Intellectual 
Property Section (CCIPS) in order to administer a nationwide IP 
program.
    The PRO IP Act, Section 403, also authorizes, but Congress has not 
yet appropriated, $10 million for the FBI and $10 million to the 
Department for the Criminal Division, respectively, to hire and train 
law enforcement officers to investigate and assist in the prosecution 
of IP crime and to procure forensic resources. If the Department 
received this funding, it would increase the number of Criminal 
Division attorneys dedicated to IP prosecutions. Specifically, in order 
to meet the increased demands posed by the PRO IP Act, the Department 
would increase the number of CCIPS attorneys who are devoted solely to 
intellectual property enforcement.

                 FUNDING FOR CLOSURE OF GUANTANAMO BAY

    Question. President Obama ordered the closure of the detention 
facility at Guantanamo Bay and created task forces to determine how 
best to do so and to move forward with effective national security 
policies. In order to put this shameful chapter behind us and do the 
hard work of reinstating our legal process, it will take resources. My 
understanding is that part of the money requested will go toward the 
task forces which are responsible for coming up with these solutions. 
Recognizing that you do not yet have all the final answers on how to 
solve the difficult problem you were left with by the last 
administration, can you tell us why you believe that $30 million sum is 
necessary?
    Answer. On January 22, President Obama issued three executive 
orders and a presidential memorandum that gave significant 
responsibility to the department. These orders require immediate 
interagency action on several fronts: a comprehensive review and 
determination of the appropriate disposition with regard to each 
detainee currently held at Guantanamo Bay; the development of policies 
regarding the detention of individuals apprehended in connection with 
armed conflicts and terrorist activities; and, an evaluation of 
interrogation and transfer practices.
    With regard to the Guantanamo Review Task Force, that Task Force is 
making individualized determinations on the detainees in order to 
facilitate the closure of Guantanamo per the President's Executive 
Order by January of 2010. The other two task forces are required to 
produce reports containing their recommendations in July 2009. There 
are now more than 80 attorneys, including several dozen detailed to 
Washington from our field offices, who are involved in this effort. We 
have also detailed paralegals with classified clearances that are 
involved in the effort.
    The Department requested $30 million in the 2009 war supplemental 
for the task forces. These task forces are tasked with work that has 
extraordinary consequences for the country, and we took significant 
steps to stand up structures utilizing dozens of attorneys and subject 
matter experts from around the country in order to facilitate their 
work. Much of this work cannot be done in an ordinary work environment. 
To give you a sense of the effort involved, we have:
  --Established the Task Force reviewing and making disposition 
        determinations regarding the detainees at Guantanamo at an 
        offsite facility that enables the task force members to work at 
        the Top Secret/SCI level; they are reviewing tens of thousands 
        of pages of classified documents. Our costs for this effort 
        cover the agents, analysts and attorneys to perform those legal 
        reviews.
  --This work must be done in a classified, secure environment, using 
        secure networks, classified-capable computers, scanning 
        devices, phones, and copiers. We had to ensure we had secure 
        electronic document handling capabilities. We are carrying the 
        costs for this secure office space, for the Top Secret/SCI 
        clearances required for our detailees, and for outfitting these 
        Task Forces with the secure equipment required for their work.
  --Finally, we have entered into Automated Litigation Support 
        arrangements to facilitate the massive document review effort, 
        and also to ensure that the records of this effort are 
        maintained properly and securely.
    The costs for classified reviews of this magnitude are tangible. We 
greatly appreciate the support the Committee can give the Department in 
this extraordinary effort.

                   NEW FOIA GUIDELINES AND RESOURCES

    Question. During my 30-plus years in the Senate, I have always 
believed that the Freedom of Information Act (FOIA) is a critical 
mechanism to ensure that our tradition of open government is preserved 
for future generations. I was pleased that, as one of his first 
official acts, President Obama issued a directive to strengthen FOIA 
and that you recently issued new FOIA guidelines that restore the 
presumption of openness for government information. I commend these 
important steps to restore confidence in our government and I believe 
that they will help reverse the troubling trend of excessive government 
secrecy that we witnessed during the last administration. Does the 
Department have sufficient resources, staffing and funding to fully 
implement your new FOIA guidelines?
    Answer. Yes, we believe that the Department has sufficient 
resources to fully implement my new FOIA guidelines. The Office of 
Information Policy operates on a fully reimbursable basis to promote 
effective FOIA operations across the Executive Branch. We will of 
course monitor this situation and work with the Congress if we conclude 
that existing resources are insufficient.
    Question. If not, what can Congress do to help ensure that the 
laudable goals of the President's FOIA directive and your new FOIA 
guidelines become a reality?
    Answer. As stated in the previous response, we believe the 
Department has sufficient resources to implement our new FOIA 
Guidelines at the present time.

   PATRIOT ACT REAUTHORIZATION UNANSWERED LETTER ASKING FOR PROPOSALS

    Question. Key parts of the Patriot Act allowing the government to 
undertake certain intelligence gathering and surveillance activities 
are set to ``sunset'' this year. The Judiciary Committee is currently 
reviewing whether and how to extend these authorities so that we can 
ensure that the intelligence community has the tools it need to keep 
the Nation safe without unduly infringing on the personal freedoms of 
Americans. I wrote to you 2 months ago asking you to provide the 
Department's legislative proposals for extending or modifying these 
Patriot Act authorities by March 31. I still await an answer to that 
letter. As you know, legislation on these matters requires careful 
attention and sufficient time for consideration without the undue 
pressure provided by pending deadlines. When can we expect the 
Department's proposals for reauthorization of the Patriot Act?
    Answer. We have received your letter and are working with the 
administration with the administration to get our views transmitted as 
quickly as possible.

       OFFICE OF LEGAL COUNSEL--OPR REPORT AND JOHNSEN NOMINATION

    Question. There has been a lot of speculation and even reporting 
about the long awaited Office of Professional Responsibility (OPR) 
report on the legal advice provided by Office of Legal Counsel 
attorneys who drafted the controversial memos giving legal cover for 
the brutal treatment of detainees. I fear there is significant 
misunderstanding of the jurisdiction of OPR and the scope of that 
report. Can you clarify what issue the OPR report is considering and 
whether it had access to on the record interviews with former Vice 
President Cheney and his staff and others in the White House or whether 
OPR's reach was limited in any way from a complete and comprehensive 
investigation?
    Answer. OPR is conducting an investigation into whether legal 
advice in several Office of Legal Counsel (OLC) memoranda regarding 
enhanced interrogation techniques was consistent with the standards of 
professional conduct that apply to Department of Justice attorneys. We 
cannot comment further on this pending investigation.
                                 ______
                                 

           Question Submitted by Senator Frank R. Lautenberg

                              COPS FUNDING

    Question. Due to actions of past administrations, the New Jersey 
cities of Camden and Newark have been banned from receiving Federal 
funds for the COPS program to hire additional police officers from the 
Economic Recovery Act. Will you commit to working with me, New Jersey's 
State Attorney General and the City of Newark to develop a plan to 
address the concerns of the Department of Justice, while allowing the 
cities of Camden and Newark to access COPS funding to hire additional 
police officers under the Economic Recovery Act?
    Answer. The Department of Justice is committed to helping local law 
enforcement during these difficult economic times; however, we must 
also remain committed to ensuring that taxpayer dollars are spent 
wisely and that all instances of waste, fraud or abuse are dealt with 
appropriately. The Department of Justice Office of Inspector General 
(OIG) found that Camden and Newark violated the grant terms and 
conditions associated with their COPS grants. Both cities chose not to 
repay the amount of the violations, but rather opted to accept the 3-
year bar from receiving COPS funds.
    The American Recovery and Reinvestment Act (ARRA) of 2009 
appropriated $1 billion for the COPS Hiring Recovery Program (CHRP) to 
create or save law enforcement positions across the country. The COPS 
Office received over 7,200 applications from law enforcement agencies 
across the country under CHRP, with requests totaling more than $8.3 
billion. COPS grants are carefully monitored and there are serious 
consequences from misuse. This is particularly important regarding ARRA 
funds.
    To remedy violations with past grants, both the City of Camden and 
the City of Newark have been barred from receiving COPS funding until 
2010. Both agencies have been in frequent contact with the COPS Office 
to discuss the options available, including repayment of funds with a 
combined total of over $1.2 million, but both declined to choose 
repayment as a remedy and opted instead for a 3-year bar.
    Camden will complete its 3-year bar period on May 30, 2010, and 
Newark will complete its 3-year bar period on December 6, 2010. The 
Department looks forward to working with both cities at that time to 
identify funding opportunities that will be available in the COPS 
Office future year budgets.
                                 ______
                                 

            Questions Submitted by Senator Richard C. Shelby

                    EXPLOSIVES TRAFFICKING IN MEXICO

    Question. The Associated Press reported in April that Mexico has 
seized more than 2,702 grenades since the start of President Felipe 
Calderon's term in December 2006, compared to 59 during the first 2 
years of the previous administration. There has been much focus of your 
Department on the trafficking of firearms to Mexico and tracing the 
origins of firearms recovered at crime scenes, but we have heard little 
in regard to the serious threat from explosives trafficking. It is only 
a matter of time before these cartels use these devices on our side of 
the border. Does DOJ have adequate resources in Mexico to assist the 
military and law enforcement in identifying recovered explosives?
    Answer. The United States Bomb Data Center (USBDC) currently 
fulfills explosive trace requests in the United States. The USBDC does 
not currently trace all explosives recovered or seized in Mexico. 
However, Mexican officials have recognized the value in tracing 
recovered explosives and have expressed interest in establishing formal 
protocols for tracing all explosives recovered or seized in Mexico.
    The USBDC currently has two employees that focus on explosives 
traces. The USBDC conducts about 140 traces a year, each of which takes 
about 3 weeks to complete, due to the extensive research required. An 
increase in trace demand from Mexico would likely slow down the trace 
processing timeline. Additionally, there is currently only one ATF 
special agent with advanced explosives training located in Mexico. At 
some point, additional resources in Mexico may be required.
    Question. Does DOJ have adequate resources at the U.S. Bomb Data 
Center to trace the enormous increase in grenades recovered in Mexico 
and analyze the data from these traces?
    Answer. Coordination Group for the Control and Arms, Ammunition and 
Explosives traffic for Mexico's law enforcement intelligence community, 
(CENAPI GC-Armas), recently reported that Mexico has recovered or 
seized 3,161 hand grenades since President Calderon took office in 
December 2006. The 940 grenades have also been turned in, over the same 
period through the Mexican military's ``Change of Arms'' program. The 
program is similar to gun buy-back programs in the United States.
    Currently, there are 16 FTEs assigned to the U.S. Bomb Data Center 
(USBDC), and 2 FTEs are assigned to perform the explosives traces. The 
Department anticipates that our law enforcement partners in Mexico will 
continue to recover grenades at the same rate as they have experienced 
in the last 2 years. Accordingly, the USBDC would need to accommodate 
an increase of approximately 1,600 grenade traces each year. Even if 
Mexico submitted requests to trace 10 percent of the aforementioned 
recoveries/seizures, the workload would more than double at the USBDC, 
significantly affecting the turnaround time for all traces--domestic 
and foreign.
    Question. Can you provide this committee with statistics on the 
recovery of grenades in the United States for the same time period for 
comparison purposes?
    Answer. According to the information reported to the U.S. Bomb Data 
Center (USBDC) by Federal, State and local agencies contributing to the 
Bomb Arson Tracking System (BATS), there have been 148 hand grenades 
seized or recovered in the United States since December 1, 2006. 
Although the Department encourages the reporting of all explosives 
incidents to the USBDC by Federal, State and local law enforcement 
agencies, there is no mandate that requires such reporting. 
Consequently, the Department can not verify that all incidents are 
reported.
    Question. Does DOJ have adequate resources for the investigation of 
the explosives related incidents involving these criminal organizations 
along the Southwest Border?
    Answer. ATF currently has a limited number of certified explosives 
specialists (CESs) assigned to Southwest Border States. Although ATF 
does solely support Southwest Border explosives investigations, the 
CESs in this region are their field divisions' primary resources for 
all explosives investigations. From the regulatory aspect, ATF's 
Industry Operations Investigators (IOIs) are required to perform 
explosives applications inspections and to inspect every explosives 
licensee/permittee at least once every 3 years in order to comply with 
the Safe Explosives Act. ATF currently has approximately 632 IOIs in 
the field, and their workload includes the performance of application 
and/or compliance inspections for approximately 107,000 Federal 
firearms licensees and 13,000 Federal explosives licensees.
    Question. Does DOJ have adequate resources for the follow-up 
investigation of explosives traces conducted by the Bomb Data Center?
    Answer. The President's budget request for fiscal year 2010 
includes 35 additional ATF agents, stationed along the Southwest 
Border. These agents will be able to assist in follow-up investigations 
of explosives traces conducted by the Bomb Data Center. It is possible 
that additional investigative resources may be required to follow up on 
explosives traces.

             EXPLOSIVES/GRENADE TRACING RESOURCES IN MEXICO

    Question. On October 11, 2008, the United States Consulate in 
Monterrey, Nuevo Leon, Mexico was attacked with assailants using small 
arms fire and a fragmentation grenade. On January 6, 2009, a television 
station located in the same Mexican city was attacked by individuals 
who fired shots at the building and threw a hand grenade over the 
perimeter wall. In light of these attacks and the increase in grenade 
recoveries, I would presume the Mexican government is requesting U.S. 
assistance in explosives related training. What efforts have you taken 
to provide explosives training to Mexican military and law enforcement 
authorities?
    Answer. Following grenade attacks in Mexico, Mexico's intelligence 
agency, the Center for Research and National Security (CISEN), was 
tasked by President Calderon to develop a cadre of agents that are 
familiar with explosives and explosives investigations. In November 
2008 the Department provided explosives identification training in 
Tucson, Arizona to 15 CISEN agents.
    CISEN and other Mexican law-enforcement and security agencies have 
asked for additional training, particularly in the area of post-blast 
investigation. While the Department has not provided additional 
training since November 2008, it is ready to continue working with the 
Department of State to identify training opportunities for Mexican law 
enforcement personnel.
    Question. Can you provide this committee with planned training 
activities for next fiscal year and where these activities will take 
place?
    Answer. The majority of explosives related training is provided to 
Federal, State, and local agencies. The Department plans to deliver a 
wide variety of explosives training courses in fiscal year 2010. No 
specific programs for Mexico have been planned yet, but the Department 
will work with the Department of State to identify any opportunities 
for such programs. Should such programs be initiated, training could be 
provided at either the National Center for Explosives Training and 
Research at Huntsville, Alabama, or elsewhere in the United States or 
Mexico.
    Question. Is this training sufficient to meet the demand from the 
Mexican government?
    Answer. The Department of Justice is working with the State 
Department to identify training opportunities and programs for Mexican 
law enforcement.

                          ATF CANINE TRAINING

    Question. How many DOJ certified explosives detection canines are 
there currently in Mexico? Has the Mexican government requested 
additional explosives detection canines from DOJ?
    Answer. There are currently 9 DOJ certified explosives detection 
canines in Mexico. The Mexican government, through the office of the 
ATF Assistant Country Attache, has requested that a total of 80 
explosives detection canines be trained and in place by fiscal year 
2013.
    Question. What is the current capacity at the DOJ canine training 
facility to train United States and foreign explosives detection 
canines?
    Answer. The capacity at the ATF National Canine Training and 
Operations Center (NCTOC) allows for the training of approximately 48 
new explosives detection canines each year.
    Question. Is this capacity adequate to meet the demand for canines? 
If not, can you provide the committee with the amount of resources and 
space needed to address any backlog of canine training?
    Answer. The demand for DOJ-certified canines is extensive and as a 
result, DOJ is experiencing backlogs at the ATF National Canine 
Training and Operations Center. The current backlog for explosives 
detection canines is 1-2 years and the wait for accelerant detection 
canines exceeds 2 years. In addition to training new canines, ATF also 
provides recertification and advanced training in support of 
approximately 3,000 explosives and accelerant detection canine teams 
currently in service with law enforcement agencies in the United 
States.

                  SUPPLEMENTAL FUNDING--GUANTANAMO BAY

    Question. The 2009 supplemental funding request includes $30 
million for the Justice Department to review the status detainees still 
held at Guantanamo to determine if they need to be tried or released. 
How will the Department spend this $30 million?
    Answer. On January 22, President Obama issued three executive 
orders and a presidential memorandum that gave significant 
responsibility to the department. These orders require immediate 
interagency action on several fronts: a comprehensive review and 
determination of the appropriate disposition with regard to each 
detainee currently held at Guantanamo Bay; the development of policies 
regarding the detention of individuals apprehended in connection with 
armed conflicts and terrorist activities; and, an evaluation of 
interrogation and transfer practices.
    With regard to the Guantanamo Review Task Force, that Task Force is 
making individualized determinations on the detainees in order to 
facilitate the closure of Guantanamo per the President's Executive 
Order by January of 2010. The other two task forces are required to 
produce reports containing their recommendations in July 2009. There 
are now more than 80 attorneys, including several dozen detailed to 
Washington from our field offices, who are involved in this effort. We 
have also detailed paralegals with classified clearances that are 
involved in the effort.
    The Department requested $30 million in the 2009 war supplemental 
for the task forces. These task forces are tasked with work that has 
extraordinary consequences for the country, and we took significant 
steps to stand up structures utilizing dozens of attorneys and subject 
matter experts from around the country in order to facilitate their 
work. Much of this work cannot be done in an ordinary work environment. 
To give you a sense of the effort involved, we have:
  --Established the Task Force reviewing and making disposition 
        determinations regarding the detainees at Guantanamo at an 
        offsite facility that enables the task force members to work at 
        the Top Secret/SCI level; they are reviewing tens of thousands 
        of pages of classified documents. Our costs for this effort 
        cover the agents, analysts and attorneys to perform those legal 
        reviews.
  --This work must be done in a classified, secure environment, using 
        secure networks, classified-capable computers, scanning 
        devices, phones, and copiers. We had to ensure we had secure 
        electronic document handling capabilities. We are carrying the 
        costs for this secure office space, for the Top Secret/SCI 
        clearances required for our detailees, and for outfitting these 
        Task Forces with the secure equipment required for their work.
  --Finally, we have entered into Automated Litigation Support 
        arrangements to facilitate the massive document review effort, 
        and also to ensure that the records of this effort are 
        maintained properly and securely.
    The costs for classified reviews of this magnitude are tangible. We 
greatly appreciate the support the Committee can give the Department in 
this extraordinary effort.
    Question. Could this be just the beginning of what some estimate to 
be a $1 billion cost to the Department?
    Answer. Beyond the fiscal year 2009 supplemental request, the 
Department has included $60 million in the 2010 budget for matters 
relating to Guantanamo detainees, including:
  --Secure detention housing, including hardening facilities during 
        trial (USMS and BOP costs) and U.S. Marshals Service security 
        command posts;
  --Secure air transport, specialized local transportation provided by 
        USMS, armored vehicles with secure communications equipment, 
        hardened cell blocks and sally ports, and overall hardening of 
        our courthouses;
  --Communication costs;
  --Linguists to communicate/facilitate instructions during trial;
  --Electronic surveillance equipment (USMS protective intelligence 
        installs counter-surveillance devices to protect the Federal 
        judiciary);
  --Litigation costs (U.S. Attorneys, NSD, and CRM); and
  --Other costs such as specialized training and fees and expenses of 
        witnesses who testify.
    Question. Can you give us some indication about the amount of 
taxpayer funds estimated to be needed to transport, imprison and 
prosecute these detainees over the next 5 years?
    Answer. Currently our planning estimates of costs do not extend 
beyond the first year. The $60 million first-year estimate we have 
developed assumes that some trial or pre-trial preparations and custody 
will be in process. The estimate includes: secure detention housing, 
secure detainee transportation, court security, communication costs, 
litigation costs, and other expenses.
    Question. Will you reimburse the State and local governments for 
their increased law enforcement costs related to the movement, 
incarceration and prosecution of these terrorists?
    Answer. Currently our planning estimates of costs do not assume 
reimbursements for State and local governments.
    Question. Will the administration send up another supplemental in 
the near future to cover these costs to the Department?
    Answer. As stated previously, our current cost estimates of $30 
million for fiscal year 2009 and $60 million for fiscal year 2010 
represent our best estimate at this time of the total costs for these 
task forces. We do not plan to seek additional supplemental funds for 
these reviews.

                          DOJ LEGAL AUTHORITY

    Question. General Holder, my colleague from Alabama, Senator 
Sessions, wrote to you over a month ago asking whether the Federal 
Government has the current legal authority to admit into the United 
States any prisoner held at the military detention facility at 
Guantanamo Bay who participated in terrorist related activities or 
training. Does the Government have the authority to admit these 
terrorists into the United States? When can we expect a written answer 
to my colleague's letter?
    Answer. On June 16, 2009 we responded to the letters from Senator 
Sessions. However, as I testified before the subcommittee with regard 
to the release decisions we will make, we will look at these cases on 
an individualized basis and make determinations as to where they can 
appropriately be placed within the spirit and letter of the law.

                               INFLUENZA

    Question. Currently the Department has thousands of agents working 
in Mexico and along the southern border. Given the recent widespread 
outbreak of H1N1 influenza can you tell us specifically what the 
Department has done to ensure the safety and health of its agents?
    Answer. The health and safety of the Department's employees is of 
utmost importance to me. DOJ has been monitoring the spread of H1N1 
since the start of the outbreak and has undertaken outreach to ensure 
that employees are aware of symptoms of H1N1, preventative measures to 
guard against infection, and HR flexibilities, such as teleworking and 
alternative work schedules. Following are some of the actions taken by 
DOJ law enforcement entities to ensure the safety of their employees.
  --The FBI purchased protective equipment, including surgical masks, 
        hand sanitizer solutions, and workspace disinfectant for wide 
        availability, including for those employees on the southern 
        border, and obtained N95 respirators for select employees whose 
        duties are most likely to bring them into close contact with 
        members of the public suffering from upper respiratory 
        infections.
  --The USMS Prisoner Operations Division issued guidance to advise 
        personnel to be vigilant in detecting symptoms in prisoners in 
        USMS custody.
  --ATF issued a broadcast to employees that provided a link to 
        Pandemic Flu Awareness training.
  --In conjunction with DHS, the Department issued a ``dual seal'' 
        document that provides instruction to law enforcement and 
        security personnel on how to prepare for and handle those they 
        encounter who exhibit H1N1 flu symptoms.

               EXPIRING PROVISIONS OF THE ADAM WALSH ACT

    Question. There are a number of Adam Walsh provisions expiring in 
fiscal year 2009. Has the Department contemplated a legislative plan 
regarding the expiring provisions of the Adam Walsh Act?
    Answer. The Adam Walsh Act is a significant and landmark piece of 
legislation. We believe any expiring provisions which serve to protect 
the public welfare and the safety of children should be extended. The 
Department is currently reviewing the provisions of the Adam Walsh 
Child Protection and Safety Act (the Adam Walsh Act) that are set to 
expire in fiscal year 2009, and looks forward to working with Congress 
to discuss these expiring provisions.
    There are two ``Authorization of Appropriations'' provisions of the 
Sex Offender Registration and Notification Act (SORNA) (Title I of the 
Adam Walsh Act) with terms from 2007 to 2009. Section 126(d) of SORNA 
(42 U.S.C. 16926(d)) authorizes ``such sums as may be necessary'' to 
the Sex Offender Management Assistance program authorized by section 
126(a) of SORNA (42 U.S.C. 16926(a)). Section 142(b) of SORNA provides 
for ``such sums as may be necessary'' to utilize Federal law 
enforcement resources to assist local jurisdictions in locating and 
apprehending sex offenders who violate their registration requirements. 
No other portion of SORNA is ``expiring'' in fiscal year 2009.
    On May 26, 2009, pursuant to his statutory authority under 42 
U.S.C. 16924(b) to grant ``two one-year extensions of the deadline,'' 
the Attorney General extended the deadline for these expiring 
provisions to July 27, 2010. States now have until that date to come 
into compliance with the requirements of SORNA.
    Question. Does the Department support reauthorization of these 
provisions designed to protect children from pedophiles and sexual 
predators?
    Answer. The Department is committed to protecting the Nation's 
children from pedophiles and sexual predators, and fully supports the 
programs outlined in the Adam Walsh Child Protection and Safety Act. We 
look forward to working with Congress to discuss reauthorization of 
expiring provisions in the Act.
    Question. What changes if any will DOJ propose?
    Answer. The Department of Justice is reviewing the Adam Walsh Act 
and looks forward to working with Congress to determine any changes 
that need to be made.
    Question. Does the Department support the requirement that sexual 
predators must register with local authorities?
    Answer. The Department of Justice believes that requiring 
registration with local authorities will aid law enforcement in 
ensuring compliance with both State and Federal laws. Since the launch 
of the Dru National Sex Offender Public Website in 2005, millions of 
parents, employers, and other concerned residents have utilized the 
Website as a safety resource, identifying location information on sex 
offenders residing, working, and going to school not only in their own 
neighborhoods but in other nearby States and communities as well.

                           NIBIN--BALLISTICS

    Question. Are there any official MOU's or policies in place 
requiring the use of NIBIN by DHS law enforcement? If not, why not? If 
so, please provide a copy for the record.
    Answer. An MOU does not currently exist between the Department of 
Justice and Homeland Security requiring the use of NIBIN by DHS law 
enforcement. We are looking at how to best facilitate DHS' use of 
NIBIN, including outlining a process for entering information into 
NIBIN.
    Question. What is the extent of DHS's coordination with ATF's 
Project Gunrunner?
    Answer. Project Gunrunner is an anti-firearms trafficking operation 
to stem the flow of illegal firearms purchased in the United States 
into Mexico. As Project Gunrunner is focused on the border, ATF 
coordinates extensively with DHS's Custom and Border Protection and 
Immigration and Customs Enforcement.
    Question. What specific initiatives does DOJ have in place to 
ensure that all firearms seized by Customs and Border Protection and 
Immigration and Customs Enforcement are being processed thru the ATF's 
NIBIN and the ballistics databases?
    Answer. The Department is looking at how best to facilitate DHS's 
use of NIBIN, including outlining a process for entering information 
into NIBIN.
    Question. How are the data from etrace and NIBIN being integrated 
and mapped along with other relevant crime data from the border?
    Answer. The El Paso Intelligence Center (EPIC), which is an 
intelligence sharing organization focusing on the Southwest Border, 
houses employees from 22 Federal, State, and local agencies, including 
ATF. By participating in EPIC, ATF is able to integrate the data 
available from NIBIN with other crime data from the border. In 
addition, ATF's Violent Crime and Analysis Branch analyzes data derived 
from traces to develop a comprehensive enforcement strategy by mapping 
the trace data to specific geographic areas. This information is used 
to form an integrated intelligence-driven policing strategy.
    Question. Are all guns seized by the Mexican authorities being 
processed by the ATF?
    Answer. The Department is only aware of the weapons that the 
Mexican authorities have submitted to ATF for tracing and processing. 
The Department has no way to ascertain whether the weapons sent to ATF 
encompass the entire universe of weapons seized by Mexican authorities. 
Mexican authorities possess the Integrated Ballistic Imaging System 
(IBIS) technology allowing them to process firearms in their 
possession. ATF recently received $3.2 million to update its IBIS 
equipment to allow ATF's technology to interact with Mexico's 
ballistics equipment.

                              BORDER CZAR

    Question. The administration recently announced the creation of a 
Border Czar. What is the Border Czar role and what actual assets will 
they control?
    Answer. I believe that the new ``border czar,'' Alan Bersin, will 
help bring a more comprehensive view of border security to the 
government. Alan brings years of vital experience working with local, 
State and international partners to help meet the challenges we face at 
our borders. As a former U.S. Attorney, Alan knows the Department of 
Justice and the entire justice system. I understand that his 
responsibilities at the Department of Homeland Security (DHS) will 
include improving relationships with the DHS's partners in the 
international community, as well as those at the State and local level 
including elected officials, law enforcement, community organizations 
and religious leaders. The DHS will determine the specifics of this 
position, including the actual assets (if any) that the Border Czar 
will control.
    Question. Can they direct any DOJ resources?
    Answer. Secretary Napolitano and I are both personally committed to 
a strong partnership between the Departments of Justice and Homeland 
Security. We understand that need for close collaboration and seamless 
cooperation between our Departments. While our specific strategic and 
operational protocols with the Border Czar have not been finalized, we 
don't expect new Border Czar to direct the allocation of DOJ resources.
    Question. Do you have to coordinate with the Czar on investigations 
or allocating DOJ resources on or near the border?
    Answer. As discussed above, Secretary Napolitano and I are both 
personally committed to a strong partnership between the Departments of 
Justice and Homeland Security. We understand that need for close 
collaboration and seamless cooperation between our Departments. Our 
respective departments routinely work together effectively in areas of 
joint concern, but given the importance of cooperation and coordination 
between our departments, there is always room for improvement. To that 
end, one of my first actions after becoming Attorney General was to 
meet with Secretary Napolitano and discuss how we might improve 
cooperation and coordination between our departments, and together we 
have established a high-level working group of agency senior staff to 
address these issues. Moreover, we continue to meet regularly to confer 
on operational and budget issues, as does our senior staff. We are 
confident that we can work together to further improve coordination 
between our departments.
    In point of fact, DOJ and DHS law enforcement agencies have worked 
successfully together for decades on investigations and prosecutions 
involving drug trafficking, money laundering, firearms trafficking, and 
border violence issues. ICE's predecessor U.S. Customs (formerly in the 
Treasury Department) and the U.S. Coast Guard (formerly in the 
Department of Transportation) have both been members of the Organized 
Crime Drug Enforcement Task Forces (OCDETF) since OCDETF's inception in 
1982, along with the Treasury Department's IRS-Criminal Investigations 
Division, and DOJ's DEA, FBI, ATF, USMS, and prosecutors in the 94 U.S. 
Attorney's Offices and Criminal Division.
    Every day agents in these OCDETF task forces across the country and 
along the Southwest Border continue to work together to disrupt and 
dismantle the most significant drug trafficking and money laundering 
cartels that operate along the Southwest Border and elsewhere. In fact, 
ICE participates in approximately 44 percent of all currently active 
OCDETF cases. CE and USCG are particularly valuable members of OCDETF' 
Co-located Strike Forces, including the Panama Express Strike Force, 
which have so far interdicted more than 850 tons of cocaine in the 
maritime transit zones between the sources in Colombia, the 
transporters in Mexico, and the end users in the United States. DOJ 
will continue to emphasize planning, coordination, and this type of 
multi-agency approach to ensure the most effective working 
relationships that will minimize jurisdictional conflicts.
    Question. Does the Border Czar have any operational control of any 
law enforcement function?
    Answer. The Deputy Attorney General directs the overall 
Departmental strategy against the Mexican cartels. In addition, the 
Assistant Attorney General for the Criminal Division will be 
coordinating extensively with Alan Bersin in his role as DHS Assistant 
Secretary for International Affairs and Special Representative for 
Border Affairs.

                               GAO STUDY

    Question. Why is ICE not participating nor contributing to these 
multi-agency efforts?
    Answer. DOJ and DHS law enforcement agencies have worked 
successfully together for decades on investigations and prosecutions 
involving drug trafficking, money laundering, firearms trafficking, and 
border violence issues. ICE's predecessor U.S. Customs (formerly in the 
Treasury Department) and the U.S. Coast Guard (formerly in the 
Department of Transportation) have both been members of the Organized 
Crime Drug Enforcement Task Forces (OCDETF) since OCDETF's inception in 
1982, along with the Treasury Department's IRS-Criminal Investigations 
Division, and DOJ's DEA, FBI, ATF, USMS, and prosecutors in the 94 U.S. 
Attorney's Offices and Criminal Division.
    Every day agents in these OCDETF task forces across the country and 
along the Southwest Border continue to work together to disrupt and 
dismantle the most significant drug trafficking and money laundering 
cartels that operate along the Southwest Border and elsewhere. In fact, 
ICE participates in approximately 44 percent of all currently active 
OCDETF cases. ICE and USCG are particularly valuable members of 
OCDETF's Co-located Strike Forces, including the Panama Express Strike 
Force, which have so far interdicted more than 850 tons of cocaine in 
the maritime transit zones between the sources in Colombia, the 
transporters in Mexico, and the end users in the United States. MOU 
between DEA and ICE, ICE agrees to fully participate at OFC and SOD, 
both in terms of staffing and information sharing, and to provide 
seizure data to EPIC, which will greatly enhance the sharing of 
intelligence between DEA and ICE.
    Question. Are there any other agencies that refuse to participate?
    Answer. The Department is not aware of other agencies refusing to 
participate.
    Question. What is the impact on drug investigations as a result of 
ICE refusing to participate with the rest of the interagency community?
    Answer. Secretary Napolitano and I are both personally committed to 
a strong partnership between the Departments of Justice and Homeland 
Security. We understand that need for close collaboration and seamless 
cooperation between our Departments. Our respective departments 
routinely work together effectively in areas of joint concern, but 
given the importance of cooperation and coordination between our 
departments, there is always room for improvement. To that end, one of 
my first actions after becoming Attorney General was to meet with 
Secretary Napolitano and discuss how we might improve cooperation and 
coordination between our departments, and together we have established 
a high-level working group of agency senior staff to address these 
issues. On June 18, 2009, DEA and ICE signed a new Memorandum of 
Understanding (MOU) that updates the previous MOU from 1994. As part of 
the recently signed agreement, ICE agrees to fully participate at OFC 
and SOD, both in terms of staffing and information sharing, and to 
provide seizure data to EPIC, which will greatly enhance the sharing of 
intelligence with the rest of interagency community.

                           SECOND CHANCE ACT

    Question. General Holder the Second Chance Act provides job 
training for convicted felons. Can you tell us how much is in your 
request for assisting felons rehabilitating them and assisting them in 
finding employment?
    Answer. For fiscal year 2010, the administration is requesting 
$13.8 million for the Bureau of Prisons (BOP) to implement a 
comprehensive reentry strategy called the Inmate Skills Development 
(ISD) initiative that has been developed on a competency-based model 
that measures success by skill acquisition. The process includes an 
assessment of an inmate's strengths and skill deficits upon admission, 
the development of an individualized plan to address skill deficits, 
and the monitoring of skill enhancements throughout incarceration. This 
framework is predicated on beginning the preparation of an inmate's 
release to the community when he or she first comes into the BOP and on 
a consistent basis throughout their incarceration, as well as 
developing partnerships and resources to assist in a successful 
transition to the community.
    Of the $100 million requested for the Office of Justice Programs 
(OJP), much of the funding will go directly to grant funds for States, 
localities and tribes, and each of these entities will submit 
applications for funding that will address a variety of reentry related 
initiatives. These initiatives may focus on substance abuse treatment, 
mental health treatment, cognitive skill development and motivational 
interviewing, as well as housing or employment. There are many 
components of successful and evidenced based reentry efforts, and thus 
we assume the majority of applicants will put forth applications that 
comprise one or more components to improve an offender's life, one that 
leads to positive behavior and contributions to the community in which 
the offender resides. We also plan to use a portion of the funds for 
research to improve the knowledge base of effective reentry strategies.
    Question. Given that the Department is working to ensure that this 
program is a success how many of the felons who in the process of being 
rehabilitated will be working at the Department?
    Answer. Funding and implementation of offender reentry programs 
that reduce recidivism and enhance public safety is an important 
priority for the Department of Justice. The Office of Justice Programs 
plans to coordinate extensively with the Department of Labor's 
Employment and Training Administration and other agencies in 
administering the programs authorized by the Second Chance Act 
including developing a program that will allow for the hiring of 
offenders who are involved in rehabilitative efforts in some of our 
community based programs.
    Question. If the Department has no initiative could you report back 
to the committee in 30 days on a suggested pilot program we could set 
up at DOJ headquarters?
    Answer. Certainly, the Department can follow-up with the Committee 
regarding the development of such a program.

                         INTELLECTUAL PROPERTY

    Question. Provide an update on the execution of this funding and 
outline what efforts the Department intends to take in the future to 
ensure that intellectual property crimes are vigorously investigated 
and prosecuted?
    Answer. The Department takes intellectual property crimes very 
seriously and I am grateful for the resources provided in the fiscal 
year 2009 Appropriation for 46 positions (31 Special Agents and 15 
Professional Staff) to support the FBI's investigations of Intellectual 
Property crimes. Of these positions, five Special Agents will be 
assigned to the Intellectual Property Rights Unit, within the Cyber 
Criminal Section at the FBI Headquarters. The remaining 26 Special 
Agents will work in coordination with the Department of Justice 
Computer Hacking and Intellectual Property Units in the following FBI 
Field Offices: Los Angeles, San Francisco, San Diego, Washington, DC, 
Seattle, San Antonio, Pittsburgh, Philadelphia, New York, Newark, 
Miami, Memphis, Kansas City, Detroit, Denver, Dallas, Chicago, Boston, 
Baltimore, and Atlanta. I will continue to work with the administration 
and Congress on resource requirements to address this issue.

                       SECOND CHANCE DUPLICATION

    Question. The Office of Justice Programs (OJP) currently 
administers more than 82 grant programs. The sponsors of the Second 
Chance act did a poor job of examining the existing programs at OJP, 
and opted for more bureaucracy and a press release. Instead of 
utilizing existing Byrne Grants, R-SAT, re-entry and other programs at 
OJP, a new battery of programs was created. It seems as though a new 
grant program is created every day. What is the Department doing to 
examine the duplication of existing programs?
    Answer. The Department is aware that some programs can be 
duplicative of past or existing reentry initiatives; however, the 
Department, through the Office of Justice Programs (OJP), makes every 
effort to avoid duplicative efforts by developing solicitations and 
other funding opportunities, where permissible within the legislation, 
that stress creation and implementation of new, innovative, and 
evidenced based initiatives that have not been initiated through 
previous funding opportunities.
    Question. What is the Department doing to find out what does and 
doesn't work?
    Answer. It is critical that the Department support new and 
innovative approaches to addressing crime that are supported by 
evidence-based practices. At OJP we are following through on this 
commitment by working to re-establish the connection between research 
and practice, and giving the field the latest information about what 
works in the field of criminal and juvenile justice. This effort is one 
of our top priorities, and is helping to restore the integrity of 
science at the Department of Justice.
    We also believe research should be integrated into, not separate 
from, our programmatic activities. OJP has started a series of internal 
working groups to figure out how we can share information with the 
field about evidence-based approaches to fighting crime. In many cases, 
the knowledge is already out there in the field and it is our job to 
facilitate the horizontal transfer of that information and advance 
programs and practices that are supported by evidence of effectiveness. 
Through these working groups, we are coming up with a strategy for 
strengthening the evidence-based nature of our programs and working to 
build a more solid research foundation for the work that we do.
    In addition, meetings and monitoring visits are held with the 
grantees to ensure that they are providing effective and efficient 
programs through the various funding opportunities. OJP has emphasized 
that the Bureau of Justice Assistance and the National Institute of 
Justice (NIJ) collaborate on the evaluation of new programs and 
initiatives. There is also an emphasis on creating meaningful and 
productive performance measures for recipients of funding.

                         DEA TITLE 21 AUTHORITY

    Question. What is your position on ICE receiving independent Title 
21 authority to investigate drug crimes, as opposed to the current 
practice of ICE relying on cross-designation by DEA?
    Answer. On June 18, 2009, DEA and ICE signed a new Memorandum of 
Understanding (MOU) that updates the previous MOU from 1994. The new 
MOU continues the use of cross-designation of ICE agents, but removes 
any cap imposed upon the number of ICE agents that can receive cross-
designation. Both Secretary Napolitano and I agree that this MOU is the 
most efficient and effective means to coordinate and deconflict drug 
enforcement investigations.
    Question. Would independent Title 21 authority for ICE cause any 
problems?
    Answer. Under the newly signed MOU, ICE will not require 
independent authority to conduct Title 21 drug investigations because 
ICE agents will be cross-designated with Title 21 authority, with no 
limitation on the number of ICE agents that may be cross-designated.
    Question. General Holder, will the new leadership for both ICE and 
DEA be able to resolve this or will it require a legislative fix?
    Answer. The recently signed MOU is the most efficient and effective 
way to address cross-designation concerns and to promote additional 
coordination. Because the issues between DEA and ICE have been resolved 
with this MOU, no legislative fix is required.
    Question. If the administration's new leadership can fix this what 
is your plan?
    Answer. I believe that with the signing of the MOU between ICE and 
DEA that any such issues related to cross-designation and coordination 
are resolved.
    Question. If ICE wants Title 21 to work narcotic cases why has ICE 
refused to participate at the OCDETF Fusion Center and EPIC? Why don't 
they play a larger role at SOD?
    Answer. Under the recently signed MOU between DEA and ICE, ICE 
commits to full participation, information sharing, and staffing at the 
OCDETF Fusion Center and SOD, and will provide seizure data to EPIC.
    Question. What intelligence do the two agencies share and how?
    Answer. DEA participates in a number of task forces and special 
initiatives with DHS agencies, including ICE, such as OCDETF, HIDTA, 
the CBP/DEA Ports Project, Border Enforcement Security Task Forces, and 
the Tunnel Task Force. These initiatives increase the flow of 
information between participating agencies regarding violent criminal 
organizations and gangs operating on both sides of the border.
    The information sharing and de-confliction processes and protocols 
established in the El Paso Intelligence Center (EPIC), the OCDETF 
Fusion Center (OFC), and the Special Operations Division (SOD) have 
proven to be effective systems for multi-agency law enforcement 
intelligence sharing. With the recently signed MOU between DEA and ICE, 
ICE agrees to fully participate at OFC and SOD, both in terms of 
staffing and information sharing, and to provide seizure data to EPIC, 
which will greatly enhance the sharing of intelligence between DEA and 
ICE.
    Question. What is DEA's plan to resolve the issue?
    Answer. ICE commits to full participation, information sharing, and 
staffing at OFC and SOD and to provide seizure data to EPIC in the 
recently signed MOU.

                LAW ENFORCEMENT WIRELESS COMMUNICATIONS

    Question. President Obama recently announced his administration's 
comprehensive response to increased violence against Mexico fight 
against the drug cartels. How effective are the tactical radio 
communications between DOJ agents and other Federal agents such as 
Customs and Border Patrol along the Southwest border and do you need 
assistance from this subcommittee to fund tactical communications?
    Answer. The Department appreciates the support the Congress has 
shown the program in fiscal year 2009, and is pleased to share our 
plans for replacing and modernizing our aging radio systems, correcting 
security deficiencies, and addressing mandated technical standards that 
directly support agents along the border. DOJ's tactical radio systems 
should be updated where appropriate with systems which are more modern, 
more reliable and more secure. DOJ is working with other Federal law 
enforcement components to increase the effectiveness of tactical 
communications.
    Due to budgetary constraints, the typical ``technical refresh'' 
investments necessary to maintain the reliable and secure operations of 
our radio systems have been postponed and/or delayed for 10-12 years. 
We have reached a point where certain aspects of our wireless systems 
are no longer supported by the original equipment vendors. Our largest 
user--the Drug Enforcement Administration--must often go to 
extraordinary lengths (Internet/eBay, cannibalization of older units, 
unreliable third party suppliers, etc.) to source replacement parts.
    Question. If this is a priority for DOJ why was LEWC not included 
in a 2009 supplement?
    Answer. We are working with the administration to develop funding 
strategies for the IWN program. The President's 2010 budget request 
would increase project funding to $205 million. These funding levels 
drastically increase our ability to invest in new wireless technology, 
reducing the costs for maintaining our legacy systems.
    Question. Follow up: The President's supplemental does not contain 
any funding for tactical communications for Federal law enforcement 
agents being deployed to the Southwest Border. If we are able to add 
funds to ensure that DOJ agents have secure digital communications 
along the SWB how quickly can DOJ respond to provide enhanced 
operational ability and security?
    Answer. The Department is prepared to immediately invest any 
additional funding to upgrade/modernize our radio systems serving the 
Southwest border. Such investments would have an immediate and 
significant impact in addressing the operational failures and security 
problems we currently face in the Southwest. Upgrade investments would 
be made in three major areas requiring attention:
  --Acquire and distribute new, modern radios (i.e., radio ``handsets'' 
        used by individuals and mobile radio systems typically 
        installed in vehicles) for our law enforcement personnel along 
        the Southwest border. This investment would immediately address 
        many of the reliability and security problems our users 
        currently encounter and we would expect to realize operational 
        benefits within approximately 90 days of investment.
  --Begin to upgrade the system infrastructure that supports our 
        tactical radios. This infrastructure includes 
        telecommunications components, computers and servers, antenna 
        towers, and related hardware. It will take approximately 9 
        months to acquire, install, test, and transition the major 
        components of this investment. Improvements in overall system 
        performance and coverage would be realized immediately upon 
        infrastructure upgrade.
  --Begin to develop and implement interoperability capabilities with 
        other Federal radio systems, including CBP. Such investments 
        would allow our users to more easily communicate with other 
        Federal law enforcement personnel. We believe that 
        interoperable capabilities can be significantly improved within 
        approximately 9 months of investment.
    Question. Will the $350,000,000 provided to DOD for 
counternarcotics activities be available for DOJ to use to help upgrade 
its law enforcement wireless communications infrastructure along the 
Southwest border?
    Answer. The Law Enforcement Wireless Communications (LEWC) Program 
has no insight to the $350 million being provided to DOD for 
counternarcotics activities, so we are not familiar with how that money 
will be used. We assume this money will be obligated in a manner 
consistent with the scope and mission originally used by DOD to justify 
the funding--and to our knowledge DOJ's IWN radio system was not 
included in that justification. No discussions have been held by the 
LEWC program and DOD regarding the use of this funding.
    Question. With regard to your fiscal year 2010 request, it is my 
understanding that DOJ requested 300 million for LEWC in 2010 and it 
has been recommended that they receive 205 million.
    Answer. With the Committee's support of the IWN program in fiscal 
year 2009, the Department received a total of $185 million, which is 
$110 million above the fiscal year 2008 enacted level. The fiscal year 
2010 request is $205 million, a $20 million increase above fiscal year 
2009 that, if enacted, will allow for further IWN deployment.
    Question. What is the plan, the schedule for completing this 
project?
    Answer. Our current implementation schedule is to design and 
develop the IWN system over a 6 year period utilizing a series of 
overlapping implementation phases. The planned 6-year upgrade and 
replacement of legacy communications systems will include regional 
design and deployment of modernized tactical communications systems and 
services focusing on urban centers. The timeframe for completion is 
dependent on the availability of funding.
    Question. Are their plans for a 2010 supplement request to help 
accelerate this program?
    Answer. At this time there are no plans to request supplemental 
funds for this program in fiscal year 2010.

                 FBI--CRIMINAL INVESTIGATIVE ABILITIES

    Question. Are you concerned over the apparent deterioration of the 
FBI's criminal investigative capabilities?
    Answer. The FBI has allocated its resources to ensure priorities 
are addressed in all its programs, including the criminal programs. We 
have established policies regarding resource allocation, we monitor 
resource use within each program to ensure that the most serious crime 
problems are addressed, and we ensure valid reasons exist for the 
diversion of resources from lower priority programs to higher 
priorities.
    Since the FBI reprioritized its mission following the terrorist 
attacks of 2001, some of the FBI's criminal program resources were 
redirected to combat the terrorism-related threats endangering our 
Nation. To alleviate any corresponding strain on other law enforcement 
agencies, the FBI has strengthened its focus and commitment to task 
force operations, which act as force multipliers. For example, the FBI 
operated approximately 50 Safe Streets Gang Task Forces before 9/11/01 
and is currently directing approximately 150 gang task forces across 
the country, consisting of approximately 650 FBI Special Agents and 
over 1,000 task force officers from other agencies. The FBI pays the 
overtime, vehicle, travel, and equipment related expenses for the 
assigned State and local agents. These task force operations maximize 
efficiency by promoting intimate collaboration and detailed information 
sharing between agencies.
    Question. Is this an area where we need to invest more agents and 
analysts?
    Answer. The fiscal year 2010 Departmental budget request to 
Congress includes a $62.6 million increase and a total of 379 positions 
(including 54 agents and 165 attorneys) to aggressively pursue mortgage 
fraud, corporate fraud, and other economic crimes. Included in this 
total are 143 positions (50 Agents) and $25.5 million for the FBI to 
combat the dramatic increase in mortgage fraud. These resources would 
enhance the FBI's field investigative capability, provide Forensic 
Accountants to aid in increasingly complex financial investigations and 
preparation of evidence for prosecution, and increase the number of 
Mortgage Fraud Task Forces.

                             FBI FORENSICS

    Question. Mr. Attorney General, the National Academy of Science 
recently issued a draft report of its findings concerning forensic 
science--a report prepared at the request of Congress. Does the 
Department agree with the findings and recommendations of the report?
    Answer. The Department agrees with many of the recommendations of 
the National Academy of Science and fully supports initiatives to 
maximize: the quality and rigor of forensic analyses; the education and 
training of forensic practitioners; rigorous quality assurance programs 
to ensure the results and interpretations of forensic analyses, and the 
conclusions drawn from them, are accurate and within acceptable 
scientific boundaries; and the proper interpretation and use of 
forensic analysis results in criminal proceedings.
    The Department also agrees that additional research is needed to 
enhance the existing body of knowledge in the forensic sciences and to 
improve efficiency and effectiveness in forensic science laboratories 
through the development of new technologies and tools. For example, we 
agree that more research is needed in the areas of human observer bias 
and other sources of human error to minimize the possibility that these 
errors will affect forensic analysis, the interpretation of forensic 
results, and the accuracy and quality of courtroom testimony. 
Specifically, the Department supports: standardizing terminology across 
the forensic science community (Recommendation 2); more research on the 
accuracy, reliability, and validity of the forensic sciences 
(Recommendation 3); more research on human observer bias and sources of 
human error in the forensic sciences (Recommendation 5); the 
development of standards, practices, and protocols for use in forensic 
sciences (Recommendation 6); lab accreditation and practitioner 
certification (Recommendation 7); stronger quality assurance and 
control procedures (Recommendation 8); the establishment of a code of 
conduct, including ethical principles (Recommendation 9); higher 
education in the forensic sciences (Recommendation 10); the improvement 
of the medico legal death investigation system (Recommendation 11); 
Automated Fingerprint Identification System interoperability 
(Recommendation 12); and the use of forensic science to aid homeland 
security (Recommendation 13).
    The Department believes two of the recommendations need further 
study: the creation of a National Institute of Forensic Science to 
oversee the nation's entire forensic science community and the removal 
of all forensic science labs from the administrative control of law 
enforcement agencies or prosecutors' offices.
    Question. Based on the report, are there areas where you could 
suggest that the Committee could start to invest funding to address 
some of the problems identified?
    Answer. The Department believes in efforts to further forensic 
science research and validation efforts and to foster optimal quality 
assurance practices in all forensic science agencies. Thus, future 
investments in NAS recommendations 1 through 13 would be a step in the 
right direction to address some of the issues identified in the study.
    Question. Do you agree with the recommendation that forensic 
laboratories should be independent of police or law enforcement 
agencies?
    Answer. Although the Department supports the location of forensic 
science practitioners in laboratory settings managed and overseen by 
scientific personnel, we do not support the removal of public 
laboratories from the administrative control of law enforcement 
agencies.

                 PEER TO PEER CHILD PORNOGRAPHY GROUPS

    Question. Attorney General Holder: The internet and innovations in 
digital technology have in many ways made life easier and made the 
world a smaller place. Much like any legitimate tool or technology, the 
criminal element always finds a way to exploit theses innovations with 
their own criminal needs.
    Currently on the internet music, books, thoughts and ideas are 
shared through ``peer to peer'' networks. These networks allow a 
computer user to connect with thousands or hundreds of thousands of 
other computers around the world and share the contents of their 
collections which are maintained on their own computer hard drives. 
Like a person in Virginia could share his thoughts or ideas on a 
particular subject freely with a person in New Mexico. These networks 
are open and for anyone to participate.
    The vile and disgusting culture involved in the production and 
distribution of child pornography also take advantage of this 
technology. In these ``peer to peer'' groups Child pornographers are 
free to post, share and download horrible images of child rape and 
exploitation. These ``peer to peer'' networks are relatively easy to 
infiltrate by law enforcement and standard Investigative procedures 
allow for the subpoenaing and identification of the origin and 
person(s) involved in distributing the child pornography.
    The internet crimes against children, ICAC, task forces along with 
other State and local law enforcement agencies are charged with 
investigating these offenses. However, because often the person sharing 
the despicable child pornography is located outside the state of the 
original investigation great cost, time and effort are needed to have 
an Investigator travel to a foreign jurisdiction to provide evidence 
and testimony to obtain a conviction.
    These ``peer to peer'' groups are relatively easy to investigate 
and these cases are ripe for picking.
    Answer. The Department of Justice is deeply committed to the fight 
against child exploitation, including the production and trade of child 
pornography. Today's technology knows no borders, so it is the rule, 
rather than the exception, for an investigation to uncover targets in 
numerous States and countries. In response to this reality, as part of 
Project Safe Childhood, the Department's Child Exploitation and 
Obscenity Section (CEOS) works with law enforcement partners, including 
the Federal Bureau of Investigation (FBI), Immigration and Customs 
Enforcement (ICE), and the Postal Inspection Service, to develop 
national and international operations which generate hundreds or even 
thousands of leads which are then disseminated to law enforcement 
agencies and United States Attorney's Offices in the appropriate 
geographic areas. CEOS also assists in the prosecution of offenders 
identified through these operations. These large-scale national and 
transnational operations leverage limited enforcement resources to 
identify high-value targets and large numbers of offenders.
    While peer-to-peer technology certainly can be used for nefarious 
purposes, it is only one of several methods of trading child 
pornography on a mass scale over the Internet. Our experience shows 
that these opportunistic offenders do not limit themselves to any 
particular technology, so our law enforcement response must be equally 
broad. For example, a Philadelphia man who had two prior convictions 
for molesting children was recently convicted in the Eastern District 
of Pennsylvania of advertising child pornography through an online 
bulletin board that he created and administered. As another example, 
fourteen individual defendants were recently convicted in the Northern 
District of Florida, seven through plea agreements and seven at trial, 
of engaging in a child exploitation enterprise. The members of the 
international illegal organization used Internet newsgroups to traffic 
in illegal images and videos depicting prepubescent children, including 
toddlers, engaged in various sexual and sadistic acts. The group, which 
included convicted sex offenders, traded over 400,000 images of 
children being sexually abused. While we are constantly trying to adapt 
to technological changes as they come--and they come quickly--we also 
note that these offenders often use traditional methods of trading 
these illegal images, such as the mail. For example, an Arizona man who 
had been identified through an undercover operation recently pled 
guilty to receiving child pornography he had ordered through the mail.
    To be sure, peer-to-peer networks offer a fertile environment for 
law enforcement action--and the Department for years has successfully 
targeted offenders using that technological platform. For its part, the 
FBI developed its first peer-to-peer operation in 2003, and later 
developed the eP2P tool in response to the use of these networks by 
child exploiters. FBI and ICE both continue to run operations to 
dismantle peer-to-peer networks, along with the work done by the 
Internet Crimes Against Children taskforces (ICACs), which have become 
very proficient in investigating these types of cases. Federal 
investigators and State and Local law enforcement agencies who 
participate on ICAC Task Forces use tools such as eP2P and Operation 
Fairplay to address peer-to-peer file sharing. In 2008, ICACs 
investigated almost 13,000 child pornography distribution cases and 
almost 10,000 child pornography possession complaints. Many of these 
cases stemmed from peer to peer investigations or from Cyber tips 
reported to the National Center for Missing and Exploited Children. 
Federal prosecutions of all child pornography offenders has increased 
in each of the last 10 years, including over 2,200 indictments filed in 
fiscal year 2008.
    Rather than emphasizing the investigation of one technology over 
another, the Department of Justice instead employs a comprehensive 
approach that includes an effort to identify peer-to-peer users, but it 
is not focused exclusively on it. In responding to the scourge of child 
exploitation, our goal through the enforcement of Federal laws is not 
to replicate the efforts of our State and local partners, but to 
complement it. This involves the identification of new technologies 
used by offenders, finding solutions to technical hurdles, and 
otherwise ensuring that we are pursuing the high-value targets wherever 
they are operating. On the last point, this often means targeting 
organized international and national networks of offenders.
    Operation Joint Hammer, announced by the Department in December of 
2008, is one such example. In that case, European law enforcement 
notified the United States of commercial website run by an Italian that 
was selling subscriptions to its members that allowed them to access 
``fresh'' images of child pornography. The U.S. received hundreds of 
leads of persons in the United States who had paid subscriptions to 
that site. The many leads were divided among the FBI, Postal Inspection 
Service and ICE, and all three Federal agencies worked in close 
association with the Department's Child Exploitation and Obscenity 
Section to investigate the leads and prosecute the offenders. By the 
end of 2008, the Operation had resulted in over 60 arrests in the 
United States. The investigation continues.

                       COMPUTER DIGITAL FORENSICS

    Question. Not since the advent of finger print evidence and later 
DNA evidence has a field of forensic sciences been so impactful in the 
area of criminal investigation as that of computer digital forensics.
    Every criminal case potentially has digital evidence within it. 
Drug deals are set up via text messaging. Murder conspirators 
communicate by way of email messages. Cell phone tracking assists in 
the location of missing or abducted persons. Massive white collar fraud 
cases are cracked due to in house email between defendants.
    State and local law enforcement around this country are not 
financially equipped nor trained effectively to investigate and 
prosecute these cases.
    Federal law enforcement agencies.
    The United States is in desperate need of training the many areas 
of cybercrime for State and local law enforcement agents, prosecutors 
and trial judges who handle over 90 percent of these cases.
    Attorney General Holder, in Alabama we have taken a major step 
forward in this area.
    Answer. More and more crimes today involve the use of digital 
devices, including terrorism, murder, child exploitation, identity 
theft, and fraud. State and local law enforcement agencies and courts 
find themselves challenged to deal with the resulting volume of digital 
evidence.
    The Department's Office of Justice Programs (OJP) is aggressively 
responding to this challenge, both with regard to providing training 
and resources and in the development of new and improved digital 
investigative and forensic tools. OJP's response is being undertaken in 
partnership with State and local practitioners.
    The Bureau of Justice Assistance's (BJA's) Electronic and Cyber 
Crime Training and Technical Assistance Program is designed to improve 
the capacity of local criminal justice systems and provide national 
support for training and technical assistance projects that 
strategically address electronic and cyber crime needs.
    The National Institute of Justice's (NIJ's) Electronic Crime 
Program is designed to improve the capability of State and local 
criminal justice agencies to acquire and process digital evidence 
effectively and efficiently. NIJ's investments in the area of 
Electronic Crime are advised by a State and local practitioner-based 
Technology Working Group to ensure it addresses the most pressing needs 
of the community. Activities sponsored under this program include:
  --Development of improved means to conduct digital forensic 
        examinations of mobile devices such as cell phones as well as 
        other digital devices
  --Provision of resources to speed the process and efficiency of 
        digital forensic examinations such as National Software 
        Reference Library (NSRL) and the Computer Tool Forensic Testing 
        Program (CFTT)
  --Publication of guides such as: ``Digital Evidence in the Courtroom: 
        A guide for Law Enforcement and Prosecutors'' and ``Forensic 
        Examination of Digital Evidence: A guide for Law Enforcement''
    OJP remains committed to this effort. In fact, since 2006, BJA and 
NIJ have provided over $2 million in grant funding to support the 
Alabama District Attorney's Association's (ADAA's) efforts to meet the 
challenge of dealing with digital forensic evidence including the 
Alabama Computer Forensic Program, which, in partnership with the 
Department of Homeland Security, United States Secret Service, created 
NCFI. The support the ADAA provides Alabama criminal justice agencies 
in this regard goes well beyond training, to include investigative 
support, prosecutorial support, and computer forensic analysis support. 
Although their efforts are focused on the needs of the State of 
Alabama, their model could well inform similar efforts by other States, 
or compacts among States.

                            METHAMPHETAMINE

    Question. In recent years many States enacted legislation that 
curtailed the access to ephedrine which is a key or vital component in 
the manufacture of crystal methamphetamine. This legislation caused a 
marked decrease in the number of meth lab seizures around the country. 
An unintended consequence of this legislation led to an increase in the 
amount of crystal methamphetamine being manufactured and imported from 
Mexico. These super labs and drug cartels have been responsible for 
much of the gang and drug violence perpetrated on our border and around 
our country. However, due to recent changes in the manufacturing 
process of meth, the amount of domestic laboratory discoveries is sky 
rocketing. This new method of cooking methamphetamine is commonly 
referred to as a ``one pot'' cook or a ``shake and bake'' cook. Early 
manufacturing methods required several stages in the manufacturing 
process. These stages might involve ingredients such as ephedrine, 
anhydrous ammonia, lithium from lithium batteries, camp fuel, ether, 
salts, drain cleaner, and other dangerous ingredients or processes. 
With this new method of a ``one pot'' cook there are no separate stages 
in the cooking process. All of the dangerous, volatile ingredients are 
combined into one container. These containers are like sticks of 
dynamite, and, once the cook has been completed, the containers are 
discarded as trash. Recently in my State of Alabama a young child 
unsuspectingly picked up a soft drink bottle and attempted to consume 
what she thought was a soft drink. It was in fact ether, acid and the 
remnants of a ``one pot'' meth cook. She received life threatening 
injuries due to this encounter.
    State and local law enforcement around the country are seeing 
greater levels of meth lab seizures than they were prior to the 
ephedrine legislation that sought to reduce the number of meth labs. In 
one jurisdiction within my State of Alabama, a local drug unit seized 
nearly 50 ``one pot'' meth labs in a single residence. Attorney General 
Holder, my question to you is: What are you and the Department of 
Justice doing to assist and train State and local law enforcement and 
prosecutors to deal with not only the influx of imported meth and its 
associated violence, but also the dramatic increase in the amount of 
local methamphetamine manufacturing, distribution and meth lab 
seizures?
    Answer. Drug and lab seizure data has historically suggested that 
roughly 80 percent of the methamphetamine used in the United States 
comes from larger labs operated by Mexican organizations that are on 
both sides of the border, with the remaining 20 percent coming from 
domestically operated Small Toxic Labs. The Department is working with 
other Federal, State, and local law enforcement counterparts to address 
both sources. More specific examples of the work undertaken by DEA and 
COPS in this area are highlighted below.
  --DEA's Mobile Enforcement Teams (METs) prioritize deployments 
        focusing on methamphetamine trafficking, which is often 
        conducted by violent Mexican cartels and gangs. In fiscal year 
        2009, DEA has 14 METs.
  --DEA continues to collaborate with its Mexican counterparts as well 
        as Customs and Border Protection. Projects such as the Long 
        Beach Ports Project, which target suspicious containerized 
        cargo, Operation All Inclusive, and Operation Ice Block, are 
        all designed to stem the flow of precursor chemicals from 
        reaching clandestine methamphetamine laboratories.
  --DEA assists State and local law enforcement by providing hazardous 
        waste contractor cleanup services and other assistance funded 
        by the Community Oriented Policing Services (COPS) program. In 
        fiscal year 2008, DEA administered 3,750 State and local 
        clandestine laboratory cleanups. Based on current data, DEA 
        expects to administer 5,600 State and local clandestine 
        laboratory cleanups in fiscal year 2009, a 49 percent increase 
        from the previous fiscal year.
  --DEA is working to expand the Hazardous Waste Container Program, 
        which reduces overall cleanup costs. The Container Program 
        allows law enforcement officers to transport properly packaged 
        hazardous waste from clandestine laboratory sites to secure 
        containers until a DEA contractor picks it up within seven 
        days. At the end of fiscal year 2008, Kentucky, Alabama, 
        Indiana, Illinois, Nebraska, and Oklahoma were participating in 
        the program. DEA Clan Lab Coordinators are also working with 
        Mississippi, Tennessee, Ohio, and Michigan on the feasibility 
        of these States joining the program. During fiscal year 2008, 
        the container programs have resulted in cost savings of 
        approximately $4 million.
  --DEA trains Federal, State, local and tribal law enforcement 
        professionals on clandestine lab enforcement operations, 
        including basic certification, officer safety and tactical 
        training. Between fiscal year 2001 and fiscal year 2008, DEA 
        provided clandestine lab training to nearly 9,000 State and 
        local law enforcement officers and plans to train 950 each year 
        in fiscal year 2009 and fiscal year 2010. Funding for these 
        activities is provided by COPS.
  --In addition to its support for DEA activities, COPS funding also 
        supports enforcement, training, and prevention nationwide, 
        concentrating in areas having the greatest need for assistance 
        in combating methamphetamine production, distribution, and use. 
        COPS encourages agencies to focus on community policing 
        approaches to methamphetamine reduction, and also works 
        directly with State, local and tribal law enforcement agencies 
        to craft innovative strategies, track and evaluate their 
        implementation, and disseminate results to other jurisdictions 
        confronting similar challenges.

                          AGENT CERTIFICATIONS

    Question. Because of Federal EPA regulations a meth lab cannot be 
legally seized or disposed of unless the law enforcement agent 
conducting the seizure has DEA Federal certifications. The waiting list 
to obtain these certifications and the costs associated are an 
impediment to many local law enforcement agencies being able to 
effectively investigate, seize and prosecute these cases. How will you 
and the Department of Justice see that the training and certification 
of these State and local law enforcement officers is expedited and made 
cost effective?
    Answer. DEA trains Federal, State, local, and tribal law 
enforcement professionals on clandestine lab enforcement operations, 
including basic certification, officer safety, and tactical training. 
Between fiscal year 2001 and fiscal year 2008, DEA provided clandestine 
lab training to nearly 9,000 State and local law enforcement officers 
and plans to train 950 each year in fiscal year 2009 and fiscal year 
2010. In December 2008, DEA opened a new clandestine lab training 
facility at the DEA Academy in Quantico, VA. DEA will use this state-
of-the-art facility to train Federal, State, local, and foreign law 
enforcement officers in meth lab techniques and how to safely enter and 
dismantle them. DEA's State and local clandestine lab training programs 
are currently funded with COPS funding provided to DEA for assistance 
to State and local law enforcement.

                        TRAINING OF PROSECUTORS

    Question. Mr. Attorney General, 95 percent of all criminal cases 
and 98 percent of all violent crime are prosecuted by our Nation's 
State and local prosecutors. However, when funding is set aside by the 
department to train prosecutors, State and local prosecutors often get 
the short end of the stick. Currently, The Hollings National Advocacy 
Center in Columbia, South Carolina is a prime example of the disparity 
between Federal and State and local prosecutors. The Federal training 
at the NAC has been well funded since its inception, however, the State 
and local program, conducted in partnership with the National District 
Attorneys Association, has struggled to provide its much needed 
programs to the Nation's 39,000 State and local prosecutors due to lack 
of funding. If we are asking State and local prosecutors to carry the 
vast majority of the burden of criminal prosecutions, what will the 
Justice Department do to ensure the guilty are brought to justice and 
the innocent protected by well-trained prosecutors?
    Answer. We value the National District Attorneys Association (NDAA) 
as a strong partner and have collaborated with NDAA on a number of 
issues including violent crime, crimes against children, capital 
litigation improvement, and motor vehicle theft. Beginning in fiscal 
year 2010, the National District Attorneys Association may apply, and 
compete, for discretionary grant funding to fund expansion of the 
current curriculum at the National Advocacy Center to provide more 
training for State and local prosecutors.

                     STUDENT LOAN REPAYMENT PROGRAM

    Question. State and local prosecutors and public defenders offices 
struggle with budgets as much, if not more as any governmental agency, 
these tight budgets make it difficult to compete against private law 
firms when recruiting and attempting to retain attorneys. Today, over 
80 percent of law school graduates enter the workforce with student 
loans that on average exceed $50,000. While many young people would 
truly like to serve their community, the sheer economics of a 
tremendous level of debt often eliminates that as an option. The Nation 
has an obligation to ensure the criminal justice system operates at the 
highest level possible. This is increasingly difficult with 
understaffed and overworked prosecutors and public defenders offices, 
which are constantly losing staff to the private sector. In part to 
address the wage disparity between the public and private sector, 
Congress passed and the President signed the John R. Justice 
Prosecutors and Defenders Incentive Act of 2008 in August. The Act 
authorizes the Justice Department to develop a student loan repayment 
program that mirrors a program already in place at the department for 
U.S. Attorney's Offices. What progress has the Department made in 
putting this program in place?
    Answer. The Department understands and appreciates the essential 
work performed by State and local prosecutors and public defenders in 
handling the large volume of cases in State court systems in this 
country. In recognition of that, through the Office of Justice 
Programs, the Department administers a number of targeted efforts to 
support the work of these attorneys in areas ranging from gun crime to 
drug cases, child abuse and neglect, and DNA evidence. In light of many 
competing priorities, however, the Department did not seek 
appropriations for student loan repayment under the John R. Justice 
Prosecutors and Defenders Incentive Act in the fiscal year 2010 budget. 
Department of Justice leadership met recently, however, with the 
Executive Director and the President of the National District Attorneys 
Association and discussed the Act and the needs that led to its 
passage. With recognition of the important work of State and local 
prosecutors and public defenders, the Department will continue to 
consider this matter.

                               NAS STUDY

    Question. The recent NAS study on Forensic Sciences raises a number 
of concerns for this subcommittee. Probably most importantly is that 
the NAS failed to follow the legislative language requesting the study. 
That being said the study is not without value and there are some 
recommendations in the study that are worth consideration and have the 
broad support of stakeholders. However, there are two proposals I find 
particularly troubling: the establishment of an independent forensics 
agency and the removal of all forensics labs from within law 
enforcement agencies. These proposals, to me, seem extremely expensive, 
ill advised, and frankly unworkable. Have you or your staff considered 
the implications of this recommendation and which agency in your 
department would be cut to cover the costs?
    Answer. The Department welcomes the report of the National Research 
Council entitled, Strengthening Forensic Science in the United States: 
A Path Forward. The report is a helpful addition to the public 
discourse on the state of the forensic science community, and it 
recommends many useful steps to strengthen the community and enable it 
to continue to contribute to an effective criminal justice system. In 
fact, many of these steps are familiar to those in the forensic science 
community, including DOJ, and have been discussed among practitioners 
for some time. In large part, it builds on previous reviews conducted 
under DOJ's auspices in 1999 and 2004 that similarly identified 
numerous areas for improvement.
    DOJ supports most of the recommendations. Many of them are directed 
toward state and local forensic entities, which is to be expected as 
around 98 percent of forensic science is performed outside the Federal 
Government. However, the Federal Government has a crucial leadership 
role to play in support of our criminal justice stakeholders and 
constituents. The Federal Government is already engaged in activities 
along the lines of many of the recommendations, but the Department 
recognizes that a significant new effort is required to appropriately 
address the issues raised by the community and in the report.
    There are two recommendations that need further study: the creation 
of a National Institute of Forensic Sciences (NIFS) ``support and 
oversee the forensic science disciplines'' nationwide and the removal 
of all forensic science labs from administrative control of law 
enforcement agencies or prosecutors' offices. The report is correct in 
observing that, currently, the Nation's forensic science community is 
somewhat fragmented given the sheer number of independent law 
enforcement agencies, prosecutorial units, and crime laboratories. 
However, there is important work in progress to unify the community 
from within, as national organizations such as the American Society of 
Crime Laboratory Directors/Laboratory Accreditation Board (ASCLD/LAB) 
and the Scientific Working Groups (SWGs) are working to standardize 
quality control and implement uniform standards. It is not clear that a 
new organization is necessary to achieve implementation of most of the 
report's recommendations. In fact, it could detract from this effort by 
refocusing energies and resources toward bureaucracy-building rather 
than substantive improvement in the field. A decision to establish a 
NIFS must be made carefully, and only after a thorough assessment of 
the strengths and weaknesses of both the concept and its proposed 
implementation.
    Along those lines, DOJ also questions whether full independence of 
laboratories from law enforcement is advisable or feasible. The report 
cites an inherent potential for conflict of interest in the operational 
function of the majority of forensic service providers as they 
currently exist. The concept of ``independence'' that the report raises 
is not new to the law enforcement or forensic science community. In 
fact, States such as Arizona and Virginia have moved in this direction. 
However, it should not be surmised that this model can or should be 
adopted Nation-wide because there is inherent value to a collaborative 
process among forensic practitioners and law enforcement in determining 
the best course of action as it relates to the analysis of forensic 
evidence. To be separated completely from interaction with 
investigative partners might well cause missteps in decision-making 
that could result in either loss and/or destruction of evidence, or 
important analyses left undone. Instead, we agree with language in the 
report stating that autonomy within law enforcement entities should be 
the goal. In fact, accredited laboratories have management requirements 
to ensure independence of their scientific work.
    The publication of Strengthening Forensic Science in the United 
States: A Path Forward provides a renewed opportunity for the forensic 
science community, the Executive Branch, Congress, and the public to 
focus on ways to improve the use of forensic science. While we have no 
plans to eliminate any DOJ agency as a result of the recommendations 
made in the NAS report, we look forward to working with Congress to 
develop and refine a comprehensive approach to address the serious 
issues raised by the report.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. So we have got a lot to do together, and 
we want to work with you to recapitalize and rebuild the 
Department of Justice so we can render justice in our country 
and have our national honor restored abroad. So we are looking 
forward to working with you and your very able staff.
    This subcommittee stands in recess until Thursday, May 21 
at 10 a.m., when we will take testimony from the Acting 
Administrator from NASA.
    The subcommittee is in recess.
    [Whereupon, at 11:38 a.m., Thursday, May 7, the 
subcommittee was recessed, to reconvene at 10 a.m. Thursday, 
May 21.]

</pre></body></html>
